<html>
<title> - DEPLORABLE HUMAN RIGHTS VIOLATIONS IN CUBA AND VENEZUELA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  DEPLORABLE HUMAN RIGHTS VIOLATIONS IN 
                          CUBA AND VENEZUELA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2015

                               __________

                           Serial No. 114-123

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ___________
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
97-464PDF                  WASHINGTON : 2015                     
                                 
                                 
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  
                                
                                 
                                 
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida<greek-l>        ALAN S. LOWENTHAL, California
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Antonio Rodiles, Cuban Dissident.............................     8
Ms. Sylvia Iriondo, President, Mothers and Women Against 
  Repression (M.A.R. por Cuba)...................................    15
The Reverend Mario Felix Lleonart Barroso, Pastor, Ebenezer 
  Baptist Church in Villa Clara, Cuba............................    22
Ms. Adriana Lopez Vermut, Sister of Leopoldo Lopez...............    45
Mr. Carlos Vecchio Demari, Lawyer, National Political 
  Coordinator, Voluntad Popular..................................    53
Ms. Ibeyise Pacheco, Venezuelan Journalist and Writer............    55

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Antonio Rodiles: Prepared statement..........................    11
Ms. Sylvia Iriondo: Prepared statement...........................    18
The Reverend Mario Felix Lleonart Barroso: Prepared statement....    25
Ms. Adriana Lopez Vermut: Prepared statement.....................    48
Ms. Ibeyise Pacheco: Prepared statement..........................    58

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Material submitted for the record..........    88
Mr. Carlos Vecchio Demari: Prepared statement....................    90

 
        DEPLORABLE HUMAN RIGHTS VIOLATIONS IN CUBA AND VENEZUELA

                              ----------                              


                        FRIDAY, NOVEMBER 6, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
the Stephen P. Clark Government Center, 111 NW First Street, 
Miami, Florida, Hon. Jeff Duncan (chairman of the subcommittee) 
presiding.
    Mr. Duncan. Good morning. We will go ahead and get started.
    Okay. We were unsure when Congressman Curbelo would make it 
in, but I am glad he made it. And we will go ahead and get 
started.
    Good morning, and welcome to this congressional field 
hearing here in Miami, Florida. I would like to thank everyone 
for attending today, and I appreciate the effort taken on 
behalf of all those involved to conduct this important hearing. 
And sincere thanks goes to the county commissioner chairman, 
and we appreciate his assistance.
    This is an official congressional hearing as opposed to a 
town hall meeting, and as such, we must abide by certain rules 
of the Committee on Foreign Affairs and the U.S. House of 
Representatives.
    I kindly wish to remind our guests today that 
demonstrations from the audience, including applause or verbal 
outburst, as well as the use of signs or placards, are a 
violation of the Rules of the House of Representatives. 
Additionally, use of photography and cameras during the hearing 
is limited to accredited press only.
    Today, I am joined by Representative Alan Grayson, who will 
serve as the ranking Democrat member; Representative Ron 
DeSantis, who serves with me on the Committee on Foreign 
Affairs; and Representative Carlos Curbelo, who represents 
south Florida and is a strong Member and active in the House of 
Representatives.
    We meet today to consider the serious issues of ongoing 
human rights abuses in Cuba and Venezuela. Winston Churchill 
once stated, ``Courage is rightly esteemed the first of human 
qualities because it is a quality which guarantees all 
others.'' Our witnesses have exhibited great courage in their 
home countries, and they have shown bravery in choosing to 
testify and tell their personal stories publicly here today.
    Yet these witnesses are really a representation of so many 
others who could not be with us here today, the Ladies in 
White; the Patriotic Union of Cuba; bloggers who dare to speak 
the truth to power; human rights' defenders unjustly victimized 
for their efforts to pursue justice; religious organizations 
who want to worship God freely and peaceably; political 
prisoners who seek to live in a democracy that stands for rule 
of law and judicial independence; and the unnamed ordinary 
citizens of Cuba and Venezuela who live in fear and who have 
been unjustly threatened, beaten, or jailed.
    We will begin this hearing with panel I to consider the 
state of human rights in Cuba, and once we have concluded our 
time of questions and answers, we will recess and reconvene 
panel II to examine the situation in Venezuela.
    My hope with this hearing is that the American public may 
better understand the gravity of events in these two countries 
and that the United States Government may have greater clarity 
on ways to more effectively promote freedom and human rights in 
Latin America.
    As chairman of House Committee on Foreign Affairs 
Subcommittee on the Western Hemisphere, I have focused closely 
on the issues of human rights and freedom of expression in the 
Americas this year. Since the Obama administration's December 
2014 announcement that changed our approach toward Cuba, our 
subcommittee has held two hearings on Cuba to examine the 
national security implications of this change and the lack of 
justice for almost 9,000 American claimants whose property was 
stolen in the wake of Cuban Revolution.
    In addition, our subcommittee has held two hearings on 
freedom of expression, specifically looking at the challenges 
to press freedoms and to religious liberties. I am deeply 
concerned about the trajectory of both Cuba and Venezuela on 
these matters.
    It is striking to me that although the Obama administration 
has taken great pains to change U.S. policy; delist Cuba from 
state sponsor of terrorism list; and prioritize meetings with 
the Cubans on environment, climate change, law enforcement, 
travel, trade, and commercial airline issues, the 
administration has made no real effort with the Cubans to 
prioritize human rights or property claims issues. They haven't 
even scheduled one single meeting in all their bilateral 
discussions to raise these issues.
    U.S. Department of Homeland Security officials who met in 
Havana last month focused on trade and travel issues. U.S. 
State Department officials who met in Havana earlier this week 
prioritized economic engagement. This very week, the 
administration made clear that human rights in Cuba are not a 
priority.
    On Tuesday, the U.S. State Department official David Thorne 
stated, ``As in other parts of the world, we are really trying 
to also say let's find out how we can work together and not 
always say that human rights are the first thing that we have 
to fix before anything else.'' So apparently, working together 
is the new highest value for the administration under President 
Obama rather than promoting U.S. interests and principles and 
achieving results.
    Reportedly, the administration is also planning further 
unilateral action to ease the U.S. embargo on Cuba. In my view, 
the administration's efforts toward Cuba reflect yet another 
failure to follow U.S. law, which clearly requires evidence of 
a democratically elected government in Cuba, the release of all 
political prisoners, the allowance of human rights 
organizations into Cuban prisons, and independent judiciary and 
free speech and press in order to terminate the U.S. embargo in 
Cuba.
    Do we see evidence today in Cuba that these legal 
requirements are met? I don't think so. Last year, there was an 
average of 741 arbitrary detentions every month in Cuba. During 
the Pope's visit 2 months ago, the number rose to 882. Last 
month alone, the Havana-based Cuban Commission for Human Rights 
documented over 1,000 short-term detentions by the Castro 
regime. Thus, for the first 10 months of this year, the Cuban 
Government has arrested and detained over 6,000 people with 
complete impunity.
    Unfortunately, Cubans' human rights abuses do not stop at 
unlawful arrests and detainments. The Committee to Protect 
Journalists ranks Cuba among the top 10 most censored countries 
in the world with the regime holding an iron grip on the print 
and broadcast media. The average Cuban citizen who wants to 
simply rent a book from the public library must undergo 
registration processes.
    In addition, while Cuba's Constitution recognizes freedom 
of conscience and religion, churches must register with the 
government. Jehovah's Witnesses and Mormons are still not 
allowed to practice in the country, and the government has been 
seizing church properties, imprisoning pastors, employing 
brutal measures against churchgoers such as the Ladies in 
White.
    While the Cuban Government released El Sexto last month, 
Cuba continues to hold 60 political prisoners and prevent 11 
individuals released on parole from leaving the country. Three 
activists arrested during the Pope's visit--and I will try to 
pronounce these correctly--Zaqueo Baez Guerrero, Boris Reni, 
and Maria Josefa Acon Sardinas remained imprisoned. It is clear 
that the basic U.S. statutory requirements for terminating or 
adjusting the U.S. embargo have not been met, and the U.S. 
Congress has a constitutional responsibility to provide a check 
and balance on the administration's action.
    Now, let's turn our attention to Venezuela. In Venezuela, 
the climate for freedom and human rights is also ice-cold. Last 
year's violence by Venezuelan state security forces against 
unarmed student protesters and bystanders was appalling. The 
harsh reaction by the Maduro regime against these protesters 
resulted in the deaths of more than 43 people, and almost 900 
people were injured. The press reports of the severe beatings, 
live firing of ammunition and teargas into crowds and arrests, 
beatings, and torture of the student protesters were chilling.
    Between 2014 and this past September there have been more 
than 3,000 detentions for political reasons in Venezuela. The 
number of political prisoners in Venezuela has surpassed those 
in Cuba. Attacks and arrests in Venezuela have affected not 
only political distance. Reportedly, the government has been 
increasingly targeting human rights defenders and local human 
rights groups. The government has even detained people who were 
caught by the intelligence agencies giving food, water, or 
other types of assistance to the protesters.
    In addition, Venezuela has one of the worst media 
environments in the region. Freedom House ranked Venezuela 
176th out of 199 countries listing it as ``not free'' in its 
2015 report.
    Similarly, government hostility to religion has led to 
complaints by Catholic bishops of expropriations, harassment, 
electronic surveillance, and phone-tapping. Priests have even 
been disbarred or debarred from hospitals and prisons as well.
    It is laughable that in July the Maduro government 
announced a 4-year human rights plan to promote a culture of 
human rights when stories of human rights atrocities continue 
unabated: Individuals such as Marco Coello, a student who was 
jailed and tortured for 5 months; Alejandro Marquez, who was 
beaten, tortured, and murdered last year; Marcelo Crovato, a 
human rights lawyer detained without arrest warrant, imprisoned 
for 10 months and now living under house arrest without trial; 
Leopoldo Lopez, who, after a sham trial, was sentenced to 
almost 14 years in prison, all yet to receive any justice for 
the government's actions against them. Recent statements by the 
leading prosecutor of Leopoldo Lopez, his case, now calls the 
trial a farce based on false evidence.
    So in conclusion, I am deeply concerned about the human 
rights situation in Cuba and in Venezuela. In my view, we have 
seen no results from U.S.-Cuba policy shift or the many 
conversations that Thomas Shannon with the State Department has 
had with the Venezuelan Government. I believe the U.S. Congress 
can do more to hold the Obama administration accountable for 
their actions on these issues and more. And I believe the 
United States must do a better job communicating a clear 
message of support to the victims of human rights abuses in 
Cuba and Venezuela and to both regimes that such repression is 
utterly deplorable and it must end.
    With that, I will turn to the ranking member Mr. Grayson, 
who is on the Committee on Foreign Affairs and acting as 
ranking member today for the Subcommittee on the Western 
Hemisphere for any opening statement he would like to make. I 
look forward to learning more from our witnesses today.
    So I will turn to Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman, and thank you to our 
witnesses for joining us today. I had a prepared statement, but 
I am not going to give it to you because in some sense this is 
personal, and I want to talk about it personally to all of you.
    My grandparents, all four of them, fled from Eastern Europe 
because of violations of their human rights and for the human 
rights of Jews all over the area.
    We see this same kind of suffering now in various parts of 
the world, and it is our duty as human beings to fight it, to 
make sure that we stand with others who are being oppressed. 
That is our function as leaders and as individuals.
    I am pleased to represent central Florida and specifically 
Orlando in Congress. My district has more people who were born 
in other countries than people who were born in Florida. In 
fact, if you look around the State, the number of people in the 
State who were born in other countries approaches the number 
who were born here in Florida.
    That gives us a unique perspective, and it gives us a 
unique circumstance that is not met in other parts of the 
country, specifically this: When we talk about foreign affairs, 
we are not talking about necessarily foreign affairs, something 
removed from us, something foreign to us. Instead, we are 
talking about, in many cases, our mothers, our fathers, our 
sisters, our brothers. These are the people who are connected 
to us in intimate ways even though they happen to live in other 
countries. And many of them weren't fortunate enough to be born 
in a place that is a free place.
    When I was growing up, there were countries all over Latin 
America that were not free. In fact, the only country 50 years 
ago when I was a boy that did not have a military government in 
Latin America was a country that didn't have a military: Costa 
Rica. Virtually every other country south of the border had a 
military government in one form or another when I was a child.
    Now, we have seen a tremendous transformation all through 
Latin America since then. And today, so many people live in 
freedom. So many people can accomplish whatever it is that they 
can accomplish in life. And that is what this is really all 
about. Every one of us is a unique bundle of interests, skills, 
talents, and limitations. I see it in my five children for 
sure.
    And what we want above all is we want people to be able to 
reach their potential without being barred from that by 
discrimination, by hunger, by a lack of education, by poverty, 
and specifically by a lack of freedom. That is an entirely 
artificial barrier so easily removed.
    Now, in the case of Cuba, I think it is important to 
understand that the perpetrator of this lack of freedom is the 
Cuban Government. I think it is wrong in this context to take 
shots at President Obama for doing his best to try to break the 
logjam that has been the mark of human relations in Cuba, and 
relations between the United States and Cuba now for more than 
half a century.
    It is clear to everyone who is going to be objective about 
this that the previous policies between the United States and 
Cuba simply didn't work. If the purpose was to bring freedom to 
Cuba over the course of the past half-century, those policies 
simply failed. And it is wrong to point the finger at President 
Obama for trying to come up with a solution to this festering 
problem.
    I went to Cuba a few years ago legally as part of a 
religious group, and what I saw was a country where the people 
simply didn't have opportunity. I saw a remarkably hardworking 
group of people. I saw a country full of people who are 
remarkably creative. How else could you possibly keep half-
century-old cars on the road except through remarkable 
creativity? And I saw a beautiful land with a great deal of 
natural resources.
    What I saw was a government that was essentially enslaving 
people, keeping them from achieving anything remotely 
resembling their potential. And I saw a government that was 
mired in early 20th century logic and ideas and keeping its 
people from reaching their potential individually. That is sad.
    We need a way to change that. What we are doing now is 
trying a different policy, which might be referred to as 
constructive engagement. We have seen some fruit being borne 
from that--the release of 53 political prisoners--but 
obviously, it is not enough.
    I myself, a Democrat, I call on the administration to adopt 
a policy that is not all carrot and no stick but rather a 
policy of accountability, a policy with the right amount of 
carrot and the right amount of stick. And in the course of 
doing so, I think that we will continue to see progress made 
toward human rights, and in particular, progress made toward 
what I think of as the American ideal, which is to allow every 
single human being, whatever their nationality, wherever they 
are from, whatever they look like, whatever language they 
speak, regardless, reach their true potential in life.
    With regard to Venezuela, we are seeing a social experiment 
on its last legs. The social experiment was obviously based 
upon a high price for oil. With a low price for oil, that 
social experiment has now failed. And we are seeing a 
government desperately trying to cling to power by blaming its 
victims.
    One of the more remarkable elements of modern politics is 
that there are some people who seem to think there is some 
benefit that when you violate human rights, you blame the 
people whose rights are being violated and you try to make 
political hay out of that.
    Anybody who has looked at the polls recently understands 
that the Maduro government is heading for a terrible defeat. 
Earlier this year, they were down 2 to 1 in the polls. When 
they did things like what they did to imprison Leopoldo Lopez, 
give him a 14-year sentence, blame him for the violence 
perpetrated against his supporters, their polls plunged even 
worse than they were before. Now, this government is looking at 
a 3 to 1 defeat in the polls.
    So I think it is fair to say that many of us expect that 
that terrible and unfair and unjust sentence, blaming the 
victim, will never actually be carried out in full.
    Democracy still seems to function fairly well in Venezuela. 
We do expect an election. I will certainly do my part to make 
sure, with the committee, with the Members of Congress to see 
to it that we have the election that can bring real change to 
Venezuela and the restoration of freedom in Venezuela.
    In the meantime, we have to ask what we can do as Members 
of Congress, as leaders, as leaders of a community that is very 
diverse, that includes Venezuelans, that includes Cubans, that 
includes people from everywhere all around the world.
    And the answer is, first, we can bear witness. That is what 
we are doing today. We are simply getting together and 
listening to people who have been victims and bearing witness. 
Amnesty International does that every day for people who are 
similarly situated, and it is a great boon because then people 
understand that when they are victims, they are not alone and 
that their situation is not ultimately desperate because we all 
stand together.
    In addition to that, in hearing this testimony today we 
also bring to bear the great power and authority both moral and 
in other reforms of the U.S. Government. We are here as 
representatives of the U.S. Government, we are here as 
policymakers for the U.S. Government, and we are here to learn 
about what we can do to improve human rights in these places--
in Latin America, in these two countries, and otherwise--and 
bring the future forward, bring these countries into the 21st 
century, not mired in 19th or 20th century ideology, bring the 
future forward and reach a time when everybody, everybody in 
every nation can be all that he or she can be.
    I am Congressman Alan Grayson. Thank you.
    Mr. Duncan. I want to thank the gentleman from Florida, and 
now I will recognize the gentleman from middle Florida, Mr. 
DeSantis, for an opening statement he may have.
    Mr. DeSantis. Well, thank you, Mr. Chairman. Thank you for 
bringing this important issue down to Florida where I know it 
has so much resonance. I am really looking forward to hearing 
from the witnesses so I will be very brief.
    The Obama administration's policy toward Cuba has provided 
an economic lifeline to the Castro dictatorship, but has not 
fostered greater freedoms for the Cuban people. Indeed, 
political repression has increased since the move toward 
normalization with the dictatorship in Havana. We must have a 
policy that supports the aspirations of the Cuban people, not 
the needs of the Castro regime.
    [Speaking foreign language.]
    Mr. DeSantis. I yield back.
    Mr. Duncan. I thank the gentleman and now recognize another 
gentleman from Florida, Mr. Curbelo, for any opening statement 
he may have.
    Mr. Curbelo. Mr. Chairman, first thing I want to do is 
welcome you to our community on behalf of my colleagues Ileana 
Ros-Lehtinen and Mario Diaz-Balart, who could not be here. They 
send their best and they thank you for your commitment to 
freedom, to democracy, and to human rights.
    I also want to welcome two colleagues who are no strangers 
to south Florida, but welcome Congressman DeSantis and 
Congressman Grayson. I am also very familiar with your 
longstanding commitment to these very important issues.
    And we hold this hearing today in a most appropriate place. 
This is the home of so many victims of the Castro regime and of 
the Venezuelan regime. This is the place where hundreds of 
thousands if not more have sought freedom, have sought refuge, 
and this community has embraced all of them with open arms. 
This country has embraced all of them with open arms. And by 
the way, they have contributed a lot to this community and to 
this country.
    So today, it is my privilege to welcome you and to join you 
in exploring the situation in Cuba, the situation in Venezuela, 
and of course U.S. policy toward both of these countries.
    For many years, in the case of Cuba, our Government had a 
policy of solidarity with the victims of the regime. Many feel 
that has now changed.
    In Venezuela, we are also concerned as we see the 
administration meeting with people like Diosdado Cabello, 
someone who is responsible for numerous, numerous, countless 
human rights abuses in Venezuela. So this is very timely.
    And, Mr. Chairman, welcome, and thank you very much.
    Mr. Duncan. I want to thank the gentleman.
    Before I recognize the witness, I would like to enter into 
the record a letter from my colleague who serves as the 
chairman of the Western Hemisphere Subcommittee on the Foreign 
Relations Committee in the United States Senate. Senator Marco 
Rubio has provided a letter.
    And without objection, so ordered.
    Before I recognize you for your testimony, let me say thank 
you for your willingness to be here today. And I will let you 
know that each of you have 5 minutes. I am not sure if we have 
the lighting system working today, but you have 5 minutes for 
your oral statement. If you would try to stay in that length, 
it would be much appreciated. And then after you testify, the 
committee members will have 5 minutes to ask you questions, and 
we will advance.
    The biographies are in your notes provided, so I won't go 
through the biographies, and we will just begin recognizing Mr. 
Antonio Rodiles. You are now recognized for 5 minutes, and 
thank you for being here.

       STATEMENT OF MR. ANTONIO RODILES, CUBAN DISSIDENT

    Mr. Rodiles. Thank you----
    Mr. Duncan. Oh, make sure the microphone is on. I don't 
know if----
    Mr. Rodiles. Yes.
    Mr. Duncan. There are buttons there. Okay.
    Mr. Rodiles. Yes? Yes, it is working.
    Well, first of all, thank you for the opportunity to appear 
before you today. I am sharing my particular perspective about 
Cuba and the role in the world.
    My name is Antonio Rodiles Gonzalez-Rodiles. I head Estado 
de SATS, a forum created in 2010 by a group of young artists, 
intellectuals, and professionals to encourage debate about 
social, cultural, and political issues in Cuba. I am also a co-
coordinator of the forum for the rights and freedom which bring 
together several opposition groups.
    We have witnessed the emergence of a new international bloc 
of authoritarian and neo-totalitarian states working together 
closely to stem the tide of liberal democracy that swept the 
world in the past 200 years. From Europe to Middle East to 
Latin America, this bloc continues to grow. The military 
dictatorship in Havana, Putin's Russia, the Iranian theocracy 
are essential parts of this alliance of the enemies of freedom. 
This bloc will adapt in order to survive even if that means 
pretending to be free marketers.
    Castro Cubans claim it is updating its model, only seeks 
economic survival by allowing the other members of this 
alliance certain market mechanisms to operate, but it preserves 
the repressive character and continue to subordinate 
fundamental rights and freedom to the interests of its military 
dictatorship.
    Cubans' intervention in Venezuela has been most alarming. 
The Maduro government is a puppet regime run by the Cuban 
advisor. Likewise, Havana emissaries are present in key roles 
in Bolivia, Ecuador, and Nicaragua, to name just a few 
countries in the region.
    Their electoral process has been twisted. State actors and 
institutions are used to steadily dismantle democratic 
mechanisms and institutions, and paramilitary actors are used 
to repress with no legal consequence.
    Furthermore, the formation of regional organizations such 
as ALBA and CELAC are providing international credibility and 
pressuring democratic nations to accept these spurious 
democracies. Not surprisingly, these policies are contrary to 
the interests of the United States.
    There are many other signs of Cuban pervasive influence in 
the region. To name just a few, first, a significant increase 
on human trafficking of Cubans through Mexico and Central 
America is taking place in coordination with organized crime; 
second, there is evidence of connection between Cuba and 
Venezuela in the drug trade; and third, Cuba, long-tied to the 
Colombian FARC, leads the talk for that terrorist organization 
to gain impunity and attain power in Colombia.
    Furthermore, in south Florida, the abuse of the Cuban 
Adjustment Act has allowed criminal rings from Cuba to stage 
systematic insurance, credit card, and Medicare fraud and 
stealing billions of dollars. The level of sophistication of 
these illegal enterprises and the fact that hundreds of 
millions are traced back to Cuba suggests the involvement of 
the Cuban regime. The future of the region we can see will have 
much to do with a democratization or not of Cuba.
    Meanwhile, on the island the outlook is complex. A 
transition from totalitarianism to authoritarianism is 
occurring in the context of a very dire situation in a nation 
that is completely de-capitalized and impoverished facing 
growing social unrest and widespread corruption.
    Raul Castro's children are by all accounts his presumed 
political heirs. The plan is to warranty continued 
authoritarian rule with the support of all regional allies and 
the international bloc. The hopes are no doubt pinned on 
President Obama's support to sustain the planned succession of 
power to the next generation of Castros. The repressive 
machinery works full blast in order illegal subject to the 
police state.
    Our work is focused principally on seeking a democratic 
transition and establishment of the rule of law in the midst of 
a very challenging external and internal environment. On the 
island, we confront a regime that enjoys total impunity in 
abusing the population. Internationally, we face the decline of 
the democratic principles and commitments.
    The steps taken by President Obama are in the present 
context unwise and to date have proved very dangerous. After 
the policy shift, the Europeans have followed the U.S. lead in 
appeasing the dictatorship. This is granting legitimacy and 
additional resources to a criminal regime that has shown ample 
capacity to adapt at crucial moments. Importantly, allowing the 
consolidation of neo-Castroism validates authoritarianism as an 
alternative to democracy in the region.
    The majority of Cuban civil society has expressed its 
disagreement with the lack of transparency and the 
unconditional character of the normalization process. We also 
reject the opinion and interests of vital players from the 
opposition both internal and in exile were ignored during the 
discussion leading to the President's announcement last 
December.
    China and Vietnam clearly demonstrate the fallacy of the 
argument that attaining certain economic freedom brings about 
civil and political liberties. The economic transformation of 
both countries has been cited by the Obama administration to 
justify a change of policy toward Cuba. Notwithstanding even of 
those two authoritarian countries, foreign companies are 
allowed to freely recruit and directly pay their employees.
    The Castro regime, meanwhile, exerts absolute control over 
the labor market, retaining or confiscating around 90 percent 
of the hard currency earnings for all Cubans working in the 
foreign sectors. It then invests these profits in its 
repressive machine. This is modern-day slavery that will not 
lead to the empowerment of the Cuban workers.
    A change of direction is fundamental. Concrete demands must 
be made to the regime, and the process must involve the active 
participation of indispensable opposition leaders. This is also 
a crucial time to prioritize the respect of fundamental freedom 
for each nation in the region.
    The good news in this grim scenario is that every one of 
these neo-totalitarian or authoritarian states there are pro-
democratic movements tenaciously struggling for freedom. 
Recently, the Forum for Rights and Freedom was created in Cuba. 
It has brought together an important assembly of leaders and 
groups within the island and in exile demanding a roadmap of 
seven points. Its logic is tied to the implementation of the 
Covenants on Human Rights of the United Nations.
    The forum, together with the vast majority of the Cuban 
resistance, subscribes to the 10-point Agreement for Democracy, 
which lays out a consensus of what the standards should be for 
a transformation to a democracy in Cuba.
    In Cuba, for the past 29 Sundays, the forum has carried out 
the Todos Marchamos--``We All March''--campaign of weekly 
demonstration led by the courageous Ladies in White, together 
with the organizations such as Resistance Front, Estado de 
SATS, UNPACU, and others, demanding the general amnesty for 
political prisoners and the end of political persecution in 
Cuba.
    The courage of these civil rights demonstrators have been 
met with the brutality of the Castro regime and its 
paramilitary groups. All sorts of violence and abuse, including 
beatings, are taking place as the regime tried to stop the 
movement that has spread throughout the island.
    Until the last December, the people of this great democracy 
could be counted on to stand with the oppressed people of Cuba. 
President after President, Democrat and Republicans, has stood 
with us in the demand for fundamental rights. The Congress 
fortunately still stands with the people of Cuba. That is 
essential for our struggle for freedom. We hope that we can 
continue to count on your support.
    Thank you.
    [The prepared statement of Mr. Rodiles follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Mr. Duncan. Thank you, sir.
    And now, Ms. Iriondo is recognized for 5 minutes.

 STATEMENT OF MS. SYLVIA IRIONDO, PRESIDENT, MOTHERS AND WOMEN 
              AGAINST REPRESSION (M.A.R. POR CUBA)

    Ms. Iriondo. Honorable Chairman Duncan and members of the 
subcommittee, good morning. Thank you for giving me this 
opportunity to speak before you about the ongoing systematic 
violations of human rights in Cuba. I will be summarizing my 
written statement.
    Political scientists today said that the dynastic communist 
dictatorship that rules Cuba has changed, although the truth is 
that the island remains a tightly controlled totalitarian state 
with a single-party system where there is no rule of law, no 
separation of powers, the executive controls the legislature 
and the courts, where citizens are denied fundamental human 
rights and civil liberties, and where workers and labor rights 
do not exist.
    Into that undeniable reality entered President Obama when 
he began negotiating normalization of relations with dictator 
Raul Castro more than 2 years ago, a secret negotiation that 
brought about his new U.S.-Cuba policy announced on December 17 
of last year.
    Almost a year later, the situation on the ground clearly 
shows that the Obama administration made many concessions not 
merited by the facts, such as returning to Cuba several Cuban 
spies that were serving time in American prisons, one of whom 
had been sentenced to two consecutive life terms, one for his 
role in the shoot-down by Cuban MiGs in international airspace 
of two civilian defenseless Brothers to the Rescue planes 
conducting a humanitarian search-and-rescue flight to save 
lives in the Straits of Florida, which resulted in the 
premeditated murders of three American citizens and one U.S. 
resident: Carlos Costa, Armando Alejandre, Jr., Mario de la 
Pena, and Pablo Morales, young men full of dreams that were 
left unfulfilled as the Castros perpetrated one of the most 
horrendous crimes in the long list of crimes committed by the 
regime throughout its 56 years in power with total impunity.
    Armando Alejandre, Jr., had voluntarily enlisted in the 
U.S. Army and served two terms of duty in Vietnam.
    The individual who ordered the shoot-down was none other 
than Cuba's Minister of the Armed Forces at the time, General 
Raul Castro. I was on board the third and only plane that made 
it back to base on that fateful day of February 24, 1996.
    And pulling Cuba out of the list of governments that 
support international terrorism while several dozen fugitives 
wanted by the FBI are welcomed in the island. To this day, an 
American terrorist who killed a New Jersey State trooper in 
cold blood was sentenced to life in prison, escaped, and went 
to live in Cuba, remains among the FBI's 10 Most Wanted. 
Regrettably, it seems that not all American lives have the same 
value.
    In regards to human rights in Cuba, the results are in. In 
April 2015 President Obama and Raul Castro met at the Seventh 
Summit of the Americas in Panama. They shook hands and 
pronounced a joint statement the next day, while Cuban state 
security agents demonstrated the true criminal nature of the 
regime by conducting violent acts of harassment to undermine 
events of the summit to which Cuba's and Venezuela's 
independent civil society representatives had been invited to 
participate.
    I was part of the delegation of the Assembly of the Cuban 
Resistance in Panama, which was a victim of a brutal violent 
assault by a group of the regimes so-called diplomats and state 
security agents who stormed out of the Cuban Embassy located in 
the vicinity of the Parque Porras while our group placed a 
wreath at the statue of Cuban Apostle of Independence Jose 
Marti. One of the repressors was Alexis Frutos Weeden, a top-
ranking intelligence agent for the Castro regime, who was 
subsequently identified as leading repressive activities in 
Venezuela.
    The attack, caught on film and reported by the news media, 
was of such violent nature that many of the activists needed 
emergency medical treatment. The pro-democracy delegation was 
detained by Panamanian police authorities for over 8 hours 
before being released, threatened with deportation and advised 
that they would have to go stand trial before a night judge, 
while Castro's thugs enjoyed total impunity.
    Officials from the U.S. Embassy in Panama finally showed up 
at the detention center many hours later just as we were being 
released close to midnight.
    Two days after, we had the opportunity to meet with a House 
delegation which included this subcommittee's chairman Jeff 
Duncan, who expressed his concern and made the following public 
statement at the time,

        ``The unrelenting and merciless impression of the Cuban 
        people by a regime hostile to liberty is a direct 
        rejection of the values we as Americans hold sacred. No 
        regime should be rewarded for such appalling acts. 
        There is no cause dearer to Americans than the cause of 
        freedom. The Cuban people have not forgotten the 
        oppression they face daily, and we will not forget 
        about them.''

    That a well-known agent of the intelligence apparatus of 
the Castro dictatorship, responsible for directing violent 
repression against young Venezuelan students, was there 
directly involved in the Parque Porras assault of our 
delegation does not bode well for human rights in our 
hemisphere. That this was allowed to happen in a free country 
within a summit that purports to uphold democratic values is 
simply unacceptable.
    Prior to and during Pope Francis' recent visit to the 
island, the Castro regime unleashed a violent wave of 
repression with over 350 detentions of peaceful activists. 
Three Cubans who attempted to hand a letter to Pope Francis 
denouncing the situation in the island were immediately 
arrested and have been kept incommunicado ever since.
    The Ladies in White are beaten by the police, and state 
security agents dressed as civilians and taken to prison. In 
spite of this, they have marched, together with other 
courageous leaders of the pro-democracy movement, for 28 
consecutive Sundays as part of the Todos Marchamos, ``We All 
March'' campaign. This past Sunday alone, approximately 70 
activists and Ladies in White were detained in Havana and 
around 80 in the Oriental region of the island.
    There has been a significant increase in repression and in 
the number of arbitrary political detentions, beatings, and 
abuse. More than 880 politically motivated detentions were 
registered for the month of September. October has been even 
worse, with 1,093 arbitrary detentions for political motives 
accounted for.
    Prominent members of the civic resistance movement in Cuba 
have died under highly suspicious extrajudicial and sudden 
circumstances, such as Laura Pollan Toledo and Oswaldo Paya 
Sardinas, to name a few of the most recent cases.
    In conclusion, the President's Cuba policy has emboldened 
and enabled the regime, which continues to maintain its 
oppressive yoke upon the Cuban people, while misleading the 
international and business community with false expectations in 
order to generate the resources it desperately needs to stay in 
power.
    Nothing has changed in Cuba under Castro's dictatorship 
that warrants unilateral concessions on the part of the United 
States. Human rights continue to be systematically violated. 
Fundamental freedoms continue to be denied. Thus, it is not 
U.S. policy that needs to change, but the Castro regime.
    In an interview this week in Havana, David Thorne, Special 
Advisor to the Secretary of State, talked about human rights in 
Cuba. The interview was carried by Reuters. Mr. Thorne said 
that the Obama administration will not condition improvements 
on the human rights situation in Cuba to American-Cuba policy, 
explaining that the administration is simply applying to Cuba 
the same policies applied elsewhere. Mr. Thorne also said that 
the pace of change, including human rights, is to be determined 
by the Cuban dictatorship and that the administration is 
satisfied with how things are going.
    It is my hope that Congress will continue to insist on 
human rights as an important part of American foreign policy. 
Until human rights and fundamental freedoms are restored, all 
political prisoners are unconditionally released, all laws 
against fundamental liberties are repealed, political parties 
are legalized and there are free multiparty elections in Cuba, 
the United States should stand united in solidarity with the 
aspirations of the Cuban people. Embracing a dictatorship in 
Cuba bodes ill for the aspirations for democracy and freedom of 
peoples throughout the Western Hemisphere and Cuba.
    As Chairman Duncan so aptly stated,

        ``The unrelenting and merciless oppression of the Cuban 
        people by a regime hostile to liberty is a direct 
        rejection of the values we as Americans hold as 
        sacred.''

    Thank you.
    [The prepared statement of Ms. Iriondo follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you so much. The video you referenced of 
the thugs in Panama attacking the protesters or the peaceful--
not protesters but the memorial was powerful. Thanks for 
referencing that.
    Ms. Iriondo. Thank you.
    Mr. Duncan. Yes, ma'am.
    The Chair will now recognize the next gentlemen, which is 
the reverend. And I can't pronounce your full name, so help me 
with that. Lleonart Barroso?
    Rev. Lleonart Barroso. Mario Felix Lleonart Barroso.
    Mr. Duncan. Okay. Gracias.
    Rev. Lleonart Barroso. Si.
    Mr. Duncan. You are recognized for 5 minutes.

STATEMENT OF THE REVEREND MARIO FELIX LLEONART BARROSO, PASTOR, 
          EBENEZER BAPTIST CHURCH IN VILLA CLARA, CUBA

    [The following statement and answers were delivered through 
an interpreter.]
    Rev. Lleonart Barroso. Thank you very much, Mr. Duncan. 
Good morning, Chairman Duncan, Mr. Grayson, Mr. DeSantis, Mr. 
Curbelo, other members of the subcommittee, especially Rebecca 
Ulrich. May God bless the United States. May God bless Cuba. I 
am a pastor, a Baptist pastor there. I have arrived from there 
yesterday to render this testimony here. Ever since the year 
2000, I am applying myself full-time to the Christian ministry.
    Ever since the time when the socialists fall in the Europe 
of the East, and given its need for international support to 
continue in power, which constitutes the supreme objective of 
the Havana regime, this attempts to deceive the entire world, 
trying to make others believe that, in Cuba, they will no 
longer violate religious liberty and freedom like it was done 
before. I come here to affirm that some of these violations 
have evolved, just that, they have become more subtle, some of 
them. Others continue to be tacky, as always.
    In the particular case of the religious freedom, I 
perfectly know that authoritarianism cannot go against itself. 
Even though they have numerous licenses given to the state by 
the United States, given the exchange of religious materials in 
the island, the internal blockage imposed by the national 
authorities impedes any of the benefits.
    Since the closest case is the one that I myself live in my 
own flesh and about which I can really talk with all authority, 
I will now refer to specific cases concerning my church, my 
family, and cousins. Some of them have been reiterated during 
the last weeks.
    I have been denied any movement to nearby locations to 
serve as a pastor. For instance, in the city of Bejucal, a few 
kilometers from the city of Havana, this way my pastorship 
activity has been restricted to several rural communities where 
besides being stopped my minister is counteract. I and my wife 
have been denied the registration for a doctor's degree in a 
theological school in Cuba. On several occasions I have been 
detained and moved to police facilities on several occasions 
against the law.
    In other situations I also have faced domestic arrest 
against my will. That is also against the law. During the 
recent Papal visit, hundreds of people suffered the same 
condition, the same situation.
    In this room here sits Mr. Leonardo Rodriguez Alonso. He 
traveled along with me yesterday from Cuba. He is a member of a 
Masonic lodge in the island. And he also has abundant material 
that deals with how the fraternal organizations suffer in the 
island. Mr. Leonardo, he was able to tape, to record, to 
videotape his detention by the police forces to prevent him 
from attending the Papal masses in Cuba.
    Many members of my church have been subjects of threatening 
warnings and mistreatment. Also, the case has been with people 
that live in my community so that they cannot attend church.
    Ever since January 2013, when some of us were able to 
travel away from Cuba, I have been detained at the airport 
itself when I returned to be interrogated upon my return. Every 
time that I have returned to the island from a trip, my luggage 
has always been inspected as if I was a traffic lord or a narco 
trafficker. But the merchandise seized has not been drugs but 
literature on many occasions of a religious nature, and even 
versions of the Universal Declaration of Human Rights.
    The most recent of these situations was just 2 weeks ago, 
Saturday, October 24, wherein 64 versions or copies were 
confiscated that I wanted to share with members of my church, 
and those are of the Universal Declaration of Human Rights.
    Periodically, meetings take place, which are called upon by 
leaders of the Communist Party in Cuba to move their colleagues 
to reinforce, to double-up their forces.
    The ceiling where Baptist church is located that had just 
collapsed and needs to be repaired, but they did not issue the 
necessary permit. And as the way of blackmailing my church, 
they have mentioned orally that while I continue to be the 
pastor, they will not issue it.
    The education of the children in Cuba is in the hands of 
the state monopoly. It imposes a strong doctrine and is 
manipulated to distribute political material. On many occasions 
that is violent in nature and the icon is Che Guevara. This has 
traumatic effects on my two daughters, Rocio and Rachel, 
especially on the youngest one Rachel who is 7 years old in her 
second grade at school. Practically every night of September 
and October she has cried thinking that the following day she 
has to return to school where she does not feel comfortable, 
especially because she there is taught principles which are 
contrary to the ones that we teach them in Sunday school.
    On occasions, the boycotts have been attempted to be 
boycotted as far as our religious services through the use of 
gangs manipulated by the authorities.
    Last night, upon arrival from Cuba, I have posted a video 
on YouTube of acts of this nature perpetrated just 1\1/2\ weeks 
ago on Sunday, October 25.
    Property which are mine or of my wife's have been 
confiscated by the police force in the case of our personal 
laptops, but the worst part is not the confiscation, but the 
grade, the degree of being defenseless in which we have fallen 
having to appear at the judicial stages, supposedly in 
existence to defend us but from which we haven't even had a 
reply, violating their own rules.
    The leaders of the western Cuban Baptist churches, the ones 
that are the churches that I lead or affiliated with--the 
leaders of the Baptist convention to which my church is 
affiliated continuously receives pressure from the office of 
the Communist Party.
    My personal correspondence is violated. My mobile service 
is totally manipulated.
    But setting aside my particular case, because I just 
pointed out that I am just a little example, even which is 
worse, at a legally recognized church and registered ever since 
1939 in Cuba, if this happens to me, that allegedly had legal 
representation in Cuba, what can we say about hundreds of 
groups that are in existence for many years in the island and 
they are not even recognized legally?
    I want to point out more in particular one of the apostolic 
groups and the Baptist mission Berean, and their leaders and 
members are continuously oppressed.
    With the help of Christian solidarity, ever since September 
2013 we have set up 30 questions that in general question the 
freedom of religion within the island. I will try to mention 
the 30 questions briefly.
    Why do they keep the Office for Attention to Religious 
Affairs of the Central Committee? And if it is not its 
competence to define whether who should believe or if it is 
proper to believe or not?
    Why don't they return the majority of the property 
confiscated during the years of open persecution or they 
indentify the affected religious groups?
    Why do they threaten with confiscation of property, 
especially of the non-recognized or formed religious groups?
    Why they have not asked forgiveness for the imprisonments 
for those interned in the concentration camps known as UMAPs, 
or even they have been murdered for holding different 
ideologies?
    Why hasn't anyone been held accountable for the wave of 
repression which took place during the visit of Pope Benedict 
XVI that took place in 2012 and whereby many thousands of 
people were oppressed and threatened? And the same thing 
occurred recently with the visit of Pope Francis.
    Why do they continue to deny access to the mass media to 
the religious organizations?
    It is 30 questions. It is up on the web. I just wanted to 
point out. You can look for them. Within the 30 questions there 
is mention also about the two violations that were rendered as 
part of the previous two testimonies that preceded me, the 
violent repression during 28 consecutive Sundays already to the 
Ladies in White and their campaign We All March. The 30 
questions are on the Internet. You have it in hand. Time does 
not suffice for me for so many violations.
    That regime does not deserve any support, but demands 
condemnation and by all the good will men like yourselves. 
Thank you.
    [The prepared statement of Rev. Lleonart Barroso follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ----------                              

    Mr. Duncan. Gracias.
    Thank you all for your testimony. The courage this 
exhibited by folks that are oppressed is amazing, and so I 
thank you for your courage.
    And so we are going to enter into the questioning phase. I 
will recognize myself for 5 minutes and then each member will 
have 5 minutes as well.
    Mr. Rodiles, you said in your statement, you talked about 
market freedoms about ``the bloc allows for certain market 
freedoms, all the while preserving structures that are subject 
to fundamental rights and freedoms to the interest of strongmen 
and populists.'' And you also reference the example of China 
and Vietnam, which is held out by certain proponents that want 
to open up Cuba as examples to where the citizens benefit.
    I would like you to go into that a little bit more. Your 
comparison of China and Vietnam but also what we see Castro 
Maduro doing with allowing some market freedoms but ultimately 
oppressing the populous, if you could just delve into that a 
little bit more for me.
    Mr. Rodiles. Well, reality, they are pretending that they 
are going to open a little bit economy, but in real terms, we 
see that they are trying to open for foreign companies to come 
to Cuba to invest, but they want the rest of Cubans to keep out 
of these kind of businesses and enterprises, not only the 
Cubans that are inside of the island, also the Cubans that are 
outside.
    They don't want the Cuban-American capital there. They 
don't want it really free for economics issues. They want to 
keep the same control in that way.
    For example, if you see right now the taxation, the 
corruption, the political loyalty that they are demanding for 
the people that get involved in business, you realize that the 
idea is not to start to open the economy little by little in 
the way to create a middle class or a class of businessmen. 
They don't want that in mind. What they want is to create a 
monopoly from a group of people especially in the army that 
they are controlling right now all the important businesses, 
and they want people to go to Cuba to invest, but the kind of 
people that don't care about what is happening with Cubans.
    For example, last day we were listening about the Sprint 
company, the telephone company that went to Cuba to make 
businesses with ETECSA. And what is happening with ETECSA every 
Sunday, for example, they cut our telephone lines. Sometimes 
even they send a fake message to create this information about 
what is happening with us. Then, what kind of enterprise they 
are going--you need to go to Cuba to make business with 
enterprises that are responding all the time to the interests 
of the political state.
    Mr. Duncan. Thank you for that.
    We in America take our access to information for granted I 
think in a lot of ways. Just at my fingertips on a phone I can 
find out pretty much the answer to any question that I may 
have. I can read news stories from around the globe, and I can 
also get on social media and push out a message.
    Explain to me and the American people--and either witness--
how the lack of having access to an open press and access to 
information, access to the internet to be able to understand--
talk about the censorship you are seeing in Cuba and Venezuela 
a little bit for us. And I will start with Mr. Rodiles, and 
then we will go to Ms. Iriondo.
    Mr. Rodiles. Well, I think that one important point here to 
understand how it is working, the totalitarian system, we need 
to understand that in general they are working hard to break 
the society, to automate the society. And for that they need 
this information of the people. They need to put the propaganda 
in the mind of people, the rest of the citizens, and to send a 
message that they cannot do anything against the totalitarian 
regime. And this is something crucial.
    If you see the TV in Cuba, you are going to realize that 
they always--the propaganda is sending the message that 
everybody that is against the system is a mercenary person, is 
a delinquent, you know, all the adjectives, pejorative 
adjectives in order to diminish the moral quality of that 
person. Then, in all these totalitarian systems, the propaganda 
is a key issue for them.
    In the case of Cuba there is not any kind of independent 
media. All the media are controlled by the government, and all 
the time they are sending that kind of message and they are 
controlling all the information that is surrounding inside of 
the country.
    Mr. Duncan. Excuse me for interrupting, but I understand in 
Cuba folks on one side of the island don't know what folks on 
the other side of the island know. There is no continuity of 
communication or information-sharing.
    This deal with Sprint communications for cellular service, 
how do you think that is going to assist the Cubans being able 
to communicate and also to share information?
    Mr. Rodiles. You mean about the Sprint company or----
    Mr. Duncan. Sprint, the cellular service just signed an 
agreement this week----
    Mr. Rodiles. Yes.
    Mr. Duncan [continuing]. Last week with Cuba. Do you think 
that will help facilitate the flow of information?
    Mr. Rodiles. You know, the point here is that we need to 
understand that every contract, or everything that you go to 
Cuba, that you do with the Cuban Government is going to pass 
through the Cuban regime and is going to pass through the state 
police. This is the main point here. When you go to Cuba, you 
are not making business with a company. You are making business 
with the Cuban regime. And they have a huge control apparatus 
to take everything and put in the same path. And the same path 
is to fight for the power, to keep the power. And this is 
something crucial that we need to understand.
    When the Obama administration say that they are going to 
implement some policies to empower the Cuban people, I don't 
know why they don't mention that in order to reach that point, 
they need to convince the Cuban regime to do the steps, because 
what we see now is that they don't have that movement in mind. 
What they want is to--what they have is a key point is to keep 
the power. And they are not doing anything, absolutely anything 
that can challenge that possibility.
    Mr. Duncan. Right. Ms. Iriondo?
    Ms. Iriondo. I would like to reiterate something that 
Antonio said, and also my good friend Dr. Jose Acel in multiple 
conferences have stated over and over again we have to 
understand that it is not doing business in Cuba. It is doing 
business with Cuba. And Cuba is controlled by Castro's regime.
    So the business you are doing it with the regime, with the 
military, with the regime that controls all businesses. Being 
able to clean choose is not private enterprise.
    The categories of cuentapropistas, what they are trying to 
project that have been so monumental changes, those are meager 
jobs. And Cubans have to pay taxes and Cubans cannot be 
employed directly by the foreign companies. They have to go 
through a state agency that, for example, if a worker is paid 
by a foreign company $1,000 for his salary, the government 
pockets around 91 percent and gives the worker the balance, 
which is almost like forced labor. And those practices are the 
practices that are going on in Cuba.
    As to the Sprint that Rodiles was talking about, what they 
don't say is that roaming charges cost $3 a minute. I wonder 
how many Cubans, how much of the independent civil society in 
Cuba can access roaming at $3 a minute when their monthly 
salaries amount to the equivalent of 20 U.S. dollars.
    Mr. Duncan. Wow. That is powerful. Thank you. I am out of 
time.
    I think the most profound statement that you made was when 
you are doing business with Cuba, you are not doing business in 
Cuba, you are doing business with Cuba. And Cuba equals Castro.
    Ms. Iriondo. Exactly.
    Mr. Duncan. No doubt. So I will turn to the ranking member 
for questioning for 5 minutes.
    Mr. Grayson. Thank you, Mr. Chair. I am going to see 
whether we can all agree that the previous policy of the U.S. 
Government that was sustained for 50 years did not bring 
freedom or democracy to Cuba. Is that a fair statement, Mr. 
Rodiles?
    Mr. Rodiles. Well, but then you need to analyze also that 
the policy that was followed by Canada and Spain and France and 
Mexico didn't work also.
    Mr. Grayson. Okay. But ours didn't work and that is what I 
was asking.
    What about you, Ms. Iriondo? Is it a fair statement, do we 
all agree that the previous policy did not bring freedom or 
democracy to Cuba?
    Ms. Iriondo. If I may say U.S. policy for Cuba was not 
intended to bring down the regime but to support the Cuban 
people, to stand in solidarity with the Cuban people. And that 
policy has impeded Castro's regime from obtaining international 
credits, which he doesn't pay afterwards, and receiving more 
resources to stay in power.
    I don't think that U.S. policy failed. I don't think that 
when you stand by a policy of solidarity with freedom, which 
is, you know, something that we as Americans hold sacred, I 
don't think that is a failed policy.
    What has failed is a regime----
    Mr. Grayson. Ms. Iriondo, how would you answer my question?
    Ms. Iriondo. What has failed is the regime. That is the----
    Mr. Grayson. Ms. Iriondo, how would you answer----
    Ms. Iriondo [continuing]. Failed policy----
    Mr. Grayson [continuing]. My question?
    Ms. Iriondo. I don't agree with your statement that U.S. 
policy has failed.
    Mr. Grayson. No, that wasn't my statement. My question was 
would you agree with me that it failed to bring freedom and 
democracy to Cuba?
    Ms. Iriondo. Well, but it has helped the Cuban people 
within their possibilities. The opposition movement is growing. 
The opposition movement is going forward. And I think that, you 
know, you have to analyze that. I don't think it is the time to 
eliminate the sanctions, to normalize relations without 
conditioning that, without conditioning that----
    Mr. Grayson. Ms. Iriondo, why won't you answer my question?
    Ms. Iriondo. Let me answer your question.
    Mr. Grayson. Please do.
    Ms. Iriondo. If----
    Mr. Grayson. Time is limited.
    Ms. Iriondo [continuing]. Condition your rapprochement with 
the regime to respect for human rights and fundamental 
liberties, the policy fails because it has given unilateral 
concessions without asking or receiving anything in return.
    Mr. Grayson. Ms. Iriondo, I am going to ask you one more 
time, and I am hoping that you will answer my question. Is it 
fair to say that the previous policy failed to bring democracy 
and freedom to Cuba? Yes or no? Is that fair to say?
    Ms. Iriondo. I don't think it is fair to say that. It has--
--
    Mr. Grayson. So you think that the previous policy did 
bring democracy and freedom----
    Ms. Iriondo. No.
    Mr. Grayson [continuing]. To Cuba, we just haven't----
    Ms. Iriondo. No. No.
    Mr. Grayson [continuing]. Noticed it?
    Ms. Iriondo. But the previous policy was a policy of 
solidarity with the Cuban people. The Cuban people, the----
    Mr. Grayson. All right.
    Ms. Iriondo [continuing]. Pro-democracy movement at this 
time feels abandoned----
    Mr. Grayson. I really wish you----
    Ms. Iriondo [continuing]. Abandoned by the----
    Mr. Grayson [continuing]. Would answer my question but I am 
going to give----
    Ms. Iriondo [continuing]. Obama administration----
    Mr. Grayson [continuing]. The reverend a chance to answer 
the question.
    Ms. Iriondo. No, you want me to answer----
    Mr. Grayson. Is it----
    Ms. Iriondo [continuing]. Your question----
    Mr. Grayson. No. No, I am going to have to move on. I 
begged you to answer my question and you refused to do so.
    Ms. Iriondo. No.
    Mr. Grayson. Reverend, let me ask you, and please feel free 
to translate this, is it fair to say that the previous policy 
failed to bring democracy and freedom to Cuba? Go ahead.
    Rev. Lleonart Barroso. It is true that it did not bring it 
about, but I coincide in the sense that it was taking side with 
suffering people. On the other side, many other nations that 
through a life term have negotiated with Cuba, that in other 
words were applying the current U.S. policy, they did not give 
the Cuban people--for the most part, I do believe that it is 
our duty, not any other country, to recover democracy.
    By applying one or the other method, you are not the ones 
who have to bring about democracy for us. But the least that we 
expect and hope for within Cuba is freedom, liberty. For human 
rights to be taken into consideration, and that this always 
conditions any treatment, a treaty or conversation with such a 
regime which is versatile and that they do not want to talk to 
their own people.
    Mr. Grayson. All right. Reverend, thank you very much. I 
would like to ask a question based upon Mr. Rodiles' testimony. 
You point out and the chairman also pointed out that there are 
different paths out of communism. One path is the path that we 
saw in the Czech Republic and Hungary, countries like that 
where a country adopts not only capitalism but also democracy 
and freedom and basic U.S. and Western principles. Another 
path, which was also alluded to, is the Chinese path or the 
Vietnamese path in which only capitalism is adopted and there 
is no genuine freedom for individuals in these societies or a 
functioning democracy where they choose their own leaders.
    Which path do you think, Mr. Rodiles, Cuba is likely to 
follow? And what will determine which path Cuba follows?
    Mr. Rodiles. Well, I need to define when you say Cuba, the 
Cuban regime, and the Cuban people. For sure, the Cuban people 
want democracy and rule of law. And you can see that with the 
Cubans that arrived here to Miami, to Florida, to the United 
States. Immediately, they are integrated in the society. They 
are working. They are producing.
    What the Cuban regime wants is a dynasty. They want to 
control the whole country, but the really critical point here 
is not only with Cuba because, as you can see, that kind of 
philosophy, that kind of point of view is spreading in Latin 
America. And you see what is happening in Venezuela. You see 
what is happening in other countries.
    My point here is that it could be really dangerous to 
accept the kind of authoritarian regimes with free market 
measures as a legitimate system. And this is going to bring a 
really bad consequence not only for Cubans, not only for Miami 
and south Florida, but also for the whole region because you 
are accepting something that is not moral.
    You are accepting that the regime that has been killing 
people, violating their human rights is a legitimate system. I 
think this is a really bad signal for all the region and also 
for the rest of the world.
    Mr. Grayson. All right. And, Reverend, I understand that 
the focus of your testimony was religious and this is not 
exactly a religious question, but I would like to hear your 
answer as well.
    If in fact countries that leave communism can evolve in 
different directions, one direction toward a complete rejection 
of that kind of system and adoption not just of capitalism but 
also freedom, democracy, and so on, and human rights versus 
other countries that leave communism and adopt only capitalism, 
which one of those two models do you think Cuba is likely to 
evolve toward, and what will determine which one it evolves 
toward if you may answer that question.
    Rev. Lleonart Barroso. Yes, absolutely. I am quite 
concerned with the intimate relationship with the regime of 
Putin. And I even have come to think that the U.S. policy--I 
mean the change in policy is trying to move ahead to the 
presence of Putin in the Western Hemisphere. But I must say 
that they are not going to impede it.
    They have copied and they will copy Putin's model. They 
will try to keep power by violating the rights of the Cuban 
people. It is a kind of a Putinism more valuable than even 
somewhere else. They continue to be the same. They have 
violated the rights for decades, and I even--on occasions I 
compare it to North Korea in the sense that North Korea might 
do whatever they do without hiding things. They just decree 
just to shoot, and they just shoot.
    Currently, there is a moratorium in Cuba to the death 
penalty ever since 2003. Even though I am convinced on 
occasions they have made the judicial executions, I am quite 
convinced that they executed Mr. Oswaldo Paya Sardinas and 
Laura Pollan Toledo, the leader of the Ladies in White.
    And I have also been witness to people near my community. I 
am a witness in a particular case of a gentleman, Mr. Soto 
Garcia, that I affirm that he was assassinated because of a 
beating that he received in May 2012. Several editorials from 
the government try to clean the image saying that they had 
nothing to do with that. I spoke with him before he passed 
away. He told me what they did to him and has accused that 
regime of doing so.
    In concrete, I do not believe that they will democratize 
the country. They are intimate friends with North Korea, 
friends with China, Putin. And I am even believing that they 
are present in Syria at this point, more dangerous than what we 
can imagine not only for the people itself but for the Western 
Hemisphere and the U.S.
    If Obama thought that on December 17 giving a change in 
policy it was going to defeat Putin and take Cuba after the 
wrestling is wrong. And Raul Castro are laughing at the U.S. at 
this point. I am truly sorry to say that.
    Mr. Grayson. Thank you, Reverend. Thank you, Mr. 
Translator. And thank you, Mr. Chair.
    Mr. Duncan. I thank the ranking member and then I will turn 
to Mr. DeSantis. And I am going to need to step away. When you 
finish, I am going to give you the power to recognize Mr. 
Curbelo.
    Mr. DeSantis [presiding]. Thank you, Mr. Chairman.
    Ms. Iriondo, bravo. I agreed with everything you said. I 
think you are right on. And, you know, this new policy is 
really a boon to the regime because it is a failed regime. They 
are insolvent. They need credit. They need money. This really 
is going to allow them to solidify themselves in power. So the 
question we have to ask is what is America getting in return 
for this? You mentioned the Brothers to the Rescue. Has there 
been any restitution or apology from the Cuban regime for those 
murders?
    Ms. Iriondo. Not from the Cuban regime, no.
    Mr. DeSantis. No, of course not.
    Ms. Iriondo. And the perpetrators have not been incited 
either.
    Mr. DeSantis. Right. Joanne Chesimard, you mentioned her. 
She is on the FBI's 10 Most Wanted Terrorists list, killed a 
cop in New Jersey, flees justice, and she is given safe haven 
in Cuba. Has there been any commitment to extradite her to the 
United States so she can face justice?
    Ms. Iriondo. No. Although the FBI offers $1 million for her 
return----
    Mr. DeSantis. And so----
    Ms. Iriondo [continuing]. Even though she is in Cuba.
    Mr. DeSantis. And so if you are harboring a terrorist, what 
is the evidence to then remove the regime from the list of 
terrorist-sponsoring country? Has there been any change in 
behavior that would warrant their removal from the list?
    Ms. Iriondo. Nothing at all. I think it was a convenient 
accomodation because of the fact that the Obama administration 
is set on this new Cuba policy. That, in my opinion, is not 
helping the Cuban people, but it is empowering the regime to 
stay in power and providing the necessary mechanisms to get the 
regime the sufficient resources they need at the time when the 
Venezuela monies are not coming as they used to come. So it is 
a crucial time in Cuba's history, and this crucial time that we 
are lending the lifesaving line to the Castro regime.
    The change in the policy was announced almost a year ago. 
You know how many Cubans have escaped to the United States in 
the last year? Forty-three thousand Cubans.
    Mr. DeSantis. Wow.
    Ms. Iriondo. Does that tell you that things are better in 
Cuba?
    Mr. DeSantis. No. And I think you are right. I mean this 
was a critical time where this regime really did need a 
lifeline. And the question is people always say, oh, this 
policy didn't work, you guys were doing all this stuff. So the 
question is, when you are changing a policy, are you making it 
easier for the Cuban people to leverage a democratic 
transition, or are you solidifying the Castro brothers in power 
and allowing the dictatorship to continue even after they 
perish? And I would say this policy is setting up the Castro 
brothers so that their regime continues far into the future. Do 
you agree with that?
    Ms. Iriondo. I agree with that. And do you abandon a just 
policy for the sake of empowering a regime at a crucial moment 
when, you know, the regime and the internal opposition are 
struggling and increasing in numbers. You don't do that. And 
that is exactly what has happened and that is why we believe 
that the new Cuba policy is wrong, and it doesn't do anything 
for the Cuban people.
    Mr. DeSantis. You know, people will say, oh, this embargo, 
it hasn't overthrown the Castro regime. The problem is that was 
not the intent of the embargo. The embargo was instituted in 
response to all the property seizures that the regime had done.
    And so Chairman Duncan has done good work in this Congress 
of actually bringing people in to testify to Congress, both 
Cuban exiles and people who were American citizens in Cuba at 
the time who had their property seized. And has there been any 
commitment to pay any of the certified claims, or any 
restitution or apology for seizing that private property?
    Ms. Iriondo. Not only that, when you see General Raul 
Castro, dictator Raul Castro, he is defiant as ever. He is 
defiant as ever. And his regime has been an enemy of the United 
States, responsible for anti-Americanism in the Western 
Hemisphere. And he continues to do so. He demands and Obama 
gives. That is the way it is.
    Mr. DeSantis. And it is frustrating because, you know, we 
really are dedicated to the idea of the rule of law, and so we 
are saying, oh, you know, let's throw an economic lifeline. You 
are going to have commerce so you may actually be having goods 
pulling up to a port that was seized from somebody. You will 
have people staying in Cuba who will be sitting in a hotel that 
was seized from somebody else. How is that advancing the rule 
of law if we are legitimizing a government simply taking 
somebody else's property outside the constraints of a legal and 
democratic system?
    So I am really frustrated when I hear some businesspeople 
say, oh, we just go to do this. Now, how would you feel if 
somebody seized your property and then started making money off 
of it?
    And you brought up a good point. There has been trade with 
Cuba for--I mean Europeans will go. They will vacation there. 
And as I understand it, the regime, the intelligence services, 
the military, they will get, you know, Euros and then they pay 
the Cuban people worthless Cuban pesos. So it is all going to 
help this elite ruling class and really keep the rest of the 
population in an enslaved state.
    So we will hear a lot of times, well, look, we just got to 
try something new. We have got to try something new. Anything 
will be better than what we have done. What is your response to 
that when people will say that to you?
    Ms. Iriondo. Well, I remember when Batista was in power and 
in Cuba everybody said anything is better than Batista. And 
look what we got. So anything is not better. Only the best is 
better. And that is an example of all this.
    I wanted also to say something that illustrates the problem 
of the concessions we are seeing that are not warranted or 
merited. If I may because I was going to say it in my testimony 
but I had not enough time to do so, there is no better example 
of this problem than the upgrading of the rating in the human 
Trafficking in Persons report published by the Department of 
State a few weeks ago. The report deals with human trafficking, 
slave labor, prostitution, and child sexual abuse, and sex 
tourism with minors. Ironically, while more tourists are going 
to Cuba, the U.S. Government reports that there is less sexual 
tourism, including child sexual abuse by foreigners.
    This is a crime that Congressman Christopher Smith, member 
of this subcommittee, has fought against for many years. 
According to a Reuters article, administration sources that 
wish not to be identified complained that Cuba, Malaysia, 
Russia, and others got a better ranking than they deserved and 
that the final ranking came about as a result of improper 
pressure on the office that prepared the report by higher State 
Department officials.
    These are the kind of unilateral concessions, list of 
terrorist states, this, the human trafficking that are not 
warranted, totally unwarranted. You were talking about other 
countries doing business in Cuba for many years. Has anything 
changed? A lot of tourists from many countries for many years. 
Have visitors brought about freedom and democracy in Cuba? Why 
do we think it is wrong? Why do we think that Cuba policy was 
one of solidarity with the Cuban people? Very simple. Because 
it is the right thing to do. Is it the just thing to do. Cubans 
deserve no more, but certainly, they deserve no less.
    Mr. DeSantis. Well, thank you. And I think that, you know, 
as you look to--I am open to always reevaluating any policies 
we have, but here is the deal. With policy toward Cuba, it has 
got to be focused, to me, on two things: standing with the 
Cuban people against the Castro regime and then what is in the 
best interest of the United States. And to me they are one in 
the same in this example because the regime in Cuba, not only 
have they brutalized their own people, they represent a 
significant security threat to our country.
    Now, you know, we say the cold war is over, all this. You 
know, we hear reports of more Russian influence, we hear 
other--the fact of the matter is this is a regime that 
associates with some of the worst regimes throughout the world. 
And why would we want a regime like that, you know, 90 miles 
from our shore.
    So my hope is that this policy has been in place now for 
almost a year. I think the results have really spoken for 
themselves. And this idea that if you just make concessions to 
the Castro brothers, we are going to be able to turn the page 
has been proven wrong, and I think that our policy needs to be 
one of solidarity with the Cuban people who are fighting for 
freedom. And so I thank all the witnesses.
    I am going to now yield to my good friend from south 
Florida and obviously a great defender of human rights around 
the world, Mr. Curbelo.
    Mr. Curbelo. Thank you very much, Congressman DeSantis.
    Mr. Rodiles, thank you for your heroic opposition to the 
Castro government, and thank you for being here today.
    For decades, almost every country in the world has had full 
diplomatic and commercial relationships with the Castro regime. 
You have been in Cuba. How has that policy of full engagement, 
unconditional engagement, how has that policy benefitted the 
Cuban people?
    Mr. Rodiles. Well----
    Mr. Curbelo. Or has it?
    Mr. Rodiles. Yes, I want to mention something related with 
this change of policy. Before this day last December, the 
European Union that now is involved in a kind of agreement with 
the Cuban Government was pushing to the regime to ratify the 
U.N. Covenants, the U.N. Covenants related with human rights. 
And also they were pushing for the implementation of the 
international worker organization to implement those norms. But 
what happened after December that those points disappear from 
the agenda. And then what happened was this new policy is 
sending a really wrong message.
    Mr. Curbelo. Yes. I agree. But my question to you is for 
many decades, many countries, almost all of them have had full 
diplomatic and commercial relations with the Cuban regime, with 
the Castro regime. Did that policy of engagement make the Cuban 
people more free? Did it improve the human rights situation----
    Mr. Rodiles. For sure, no.
    Mr. Curbelo [continuing]. In Cuba?
    Mr. Rodiles. Is it clear that no.
    Mr. Curbelo. Okay. Thank you.
    Mr. Rodiles. Let me say something quickly.
    Mr. Curbelo. Briefly, please.
    Mr. Rodiles. Yes. Sometimes people, the argument is that we 
need to change the policy, and that is true. We can change the 
policy but we cannot make the policy worse. We need to improve 
what we are doing.
    Mr. Curbelo. I agree with that. Ms. Iriondo, thank you for 
being here today. The Cuban regime during the Soviet subsidies 
was cash-rich. It had many resources. What was it doing with 
these resources? What was the Cuban military doing? What does 
the Cuban Government do when it has a lot of access to cash?
    Ms. Iriondo. Strengthen its repressive apparatus and 
unleash a wave of repression against everyone that dares or 
intends to speak out or to do something against the state.
    Mr. Curbelo. And what was it doing around the world during 
those times when they had so much access to cash----
    Ms. Iriondo. They were----
    Mr. Curbelo [continuing]. And when they could invest 
heavily in their military? What were they doing?
    Ms. Iriondo. They were exporting the revolution, 
undermining democratic governments, assisting guerillas----
    Mr. Curbelo. Were they fighting Americans----
    Ms. Iriondo. They were fighting, yes.
    Mr. Curbelo [continuing]. In different theaters?
    Ms. Iriondo. They were fighting and they were providing 
also intelligence security and security agents to a lot of 
places, including Venezuela where there are more than 35,000 
agents of the state security apparatus.
    Mr. Curbelo. Do you think that after the fall of the Soviet 
Union our sanctions policy helped debilitate the Cuban military 
and limit their ability export revolution to train guerilla 
forces to fight American soldiers in different theaters of war?
    Ms. Iriondo. Yes, it did. Yes, it did.
    Mr. Curbelo. And do you expect that the Cuban Government, 
if they have access again to plentiful resources, that they 
will try to become international players once again and 
confront the United States throughout the world?
    Ms. Iriondo. Undoubtedly. They have done it directly. They 
have----
    Mr. Curbelo. As a matter of fact----
    Ms. Iriondo [continuing]. Done it directly.
    Mr. Curbelo [continuing]. The Cuban Government, even 
despite the fact that it doesn't have access to resources the 
way it used to, has destroyed Venezuela in our own hemisphere?
    Ms. Iriondo. Yes. When you hear dictator Raul Castro in his 
statements or you hear Bruno Rodriguez, they are already doing 
it. They are going and you see President Obama on one side 
granting this unilateral concessions and speaking, you know, 
about the rapprochement and the normalization of relations, and 
you see the regime demanding things, demanding things more and 
more and more everywhere they talk. So they are doing it. And 
the more resources they have, the more they are going to try to 
undermine because that is the nature of the beast. And the 
regime is not reformable.
    Mr. Curbelo. Mr. Rodiles, you live in Cuba. Ms. Iriondo 
mentioned earlier that since the announcement of the new 
policy, 43,000 Cubans at least have escaped the island. Now, 
without question, on December 17, beyond changing United States 
policy toward Cuba, the Obama administration, together with the 
Castro dictatorship, shared a new vision for Cuba, a new vision 
for the relationship between the United States and Cuba. Do you 
interpret that these at least 43,000 Cubans, many who have 
risked their lives to leave the island since then, is that 
their reaction to the policy change?
    Mr. Rodiles. No, I think this is the real pool about what 
Cuban people are thinking about the new scenario because who is 
going to take that risk if they think that the future is going 
to be better, if they feel optimistic? It is clear that people 
don't believe that the regime is going to change anything. 
Every people in Cuba is completely convinced that during the--
if these people keep in power, the reality is not going to 
change. This is something that people always say in the street. 
If they keep there, anything is going to change. And I think 
that this situation, this exodus that we are watching right 
now, this is a clear message about the criteria that people 
have about this new policy.
    Mr. Curbelo. I am glad you used that word exodus because in 
1994 about 40,000 Cubans fled on rafts. Now, that was very 
dramatic because they all fled at the same time. However, what 
we are seeing now is a repeat of that 1994 phenomenon. Ms. 
Iriondo. Do you believe that this is--because the Obama 
administration says that their new policy is wildly popular in 
Cuba and that the Cuban people are now full of hope for the 
future. Now, if that is true, why would so many seek to flee 
risking their lives in many cases, others taking a very 
difficult journey through Mexico where they are the victims of 
these human traffickers, these coyotes? Why would they be doing 
this if there is this renewed sense of hope and optimism in 
Cuba?
    Ms. Iriondo. Because the answer is clear. There is no hope 
in Cuba as long as the regime is in power. The regime has not 
changed and the Cuban people do not expect the regime to 
change. That is why they risk their lives. That is why we have 
43,000 so far since December 17, 2014.
    Mr. Curbelo. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeSantis. I thank the gentleman. And I would like to 
thank the witnesses of our first panel for your courage and the 
courage that you have shown here today. I want to invite you to 
stay for the remainder of the hearing, but we will recess now 
and we will consider the events in Venezuela through panel II. 
And the subcommittee will recess for a couple minutes while we 
set back up.
    Ms. Iriondo. Mr. Chairman, can I leave with you the photos 
of the Panama assault?
    Mr. DeSantis. Yes, you can. Yes, ma'am.
    Ms. Iriondo. Thank you.
    Mr. DeSantis. Thank you. And we will stand in recess.
    [Recess.]
    Mr. Duncan. The subcommittee will come to order. As I 
mentioned, the panel I witnesses--before I recognize you on 
panel II to provide your testimony, know that each of you will 
have 5 minutes to present your oral statement. And please try 
to keep within 5 minutes. We are on a tight time crunch.
    Before we get started, I am going to recognize Mr. DeSantis 
for an opening statement. He has an airplane to catch.
    Mr. DeSantis. Yes, I apologize. I will read your 
statements. I was not able to get a later flight so I am going 
to have to scooch out to the airport. But I just wanted to say 
that I, as well as the chairman of this committee, stands 
forthrightly behind the people of Venezuela who are being 
oppressed by the Maduro government, a thuggish socialist 
dictatorship. And we need change in Venezuela, and we need a 
policy that recognizes the interests of the Venezuelan people 
to live in a country that recognizes their God-given human 
rights. And we are committed on this committee to going in that 
direction, and I wish everybody the best.
    Thank you, Mr. Chairman.
    Mr. Duncan. And I want to thank the gentleman for taking 
time to be here today and for his great questioning.
    So the witnesses will testify. We do have copies of your 
bios in our material that is provided to all the members, so I 
will not read those. We are going to move directly into your 
testimony. And other members of the committee, after press 
events, will make it back to the dias.
    But, Ms. Adriana Lopez Vermut, you are recognized for 5 
minutes. Pull that microphone close. Thanks.

STATEMENT OF MS. ADRIANA LOPEZ VERMUT, SISTER OF LEOPOLDO LOPEZ

    Ms. Lopez Vermut. Thank you. Honorable Chairman Jeff Duncan 
and members of the Subcommittee on the Western 
Hemisphere<greek-l> Affairs deg., thank you for inviting me to 
testify today and taking the time to hear my family's story.
    My name is Adriana Lopez Vermut, and I am the younger 
sister of Leopoldo Lopez, leader of the opposition party 
Voluntad Popular and former mayor of the Chacao municipality of 
Caracas.
    Since February 19, 2014, Leopoldo has been wrongly 
imprisoned in a military prison in Venezuela. His arrest has 
been declared arbitrary by the United Nations Working Group on 
Arbitrary Detention, which has called on Venezuela to 
immediately free him.
    The United Nations High Commissioner for Human Rights, 
United Nations Committee Against Torture, the Secretary General 
of the Organization of American States, President Barack Obama, 
Colombian President Juan Manuel Santos, and more than 40 other 
current and past Latin American heads of states have echoed 
this call for his release. Amnesty International has labeled 
Leopoldo a prisoner of conscience.
    Leopoldo is in jail because of his ideas. At a series of 
peaceful protests in February 2014, he gave speeches calling 
for nonviolent, democratic change in Venezuela in accordance 
with its Constitution. Despite the repeated emphasis on urging 
a transition through nonviolence and adherence to the 
Constitution, the government issued a warrant for his arrest 
that day claiming for his goal to overthrow the government 
through violent means.
    After more than 1\1/2\ years in jail, on September 10, 
2015, Leopoldo was convicted of all charges and sentenced to 13 
years and 9 months in prison. On that terrible day, Leopoldo 
responded to this terrible conviction by saying, ``Today, they 
condemn me. But it is the regime that is condemned, for the 
people of Venezuela will set me free.''
    While Leopoldo is obviously innocent, his conviction was 
not a surprise. From the moment that a warrant for his arrest 
was issued, we knew that the latest target of a ruthless 
authoritarian regime that seeks to silence dissent.
    Leopoldo's trial was a farce. Six hundred hours of 
prosecution presenting their case and over 100 witnesses with 
no witnesses or evidence allowed from the defense.
    While it was not a surprise, it was gratifying to see the 
defection of the lead prosecutor in the case against Leopoldo, 
Franklin Nieves, who came to the United States last week and 
openly admitted that he was pressured by the Venezuelan 
Government to bring false accusations against Leopoldo.
    Leopoldo's imprisonment has not been easy. He has spent 
half of his time in solitary confinement and at the whim of the 
prison guards. He has been subject to countless violent 
searches of his cell and is routinely denied visitors as 
punishment for his actions and those of his wife, Lilian 
Tintori, who has undertaken intense advocacy for his release. 
At one low point, prison guards threw urine and feces into 
Leopoldo's cell and then cut off the water to clean it.
    Currently, Leopoldo is the only prisoner in a building that 
consists of 30 cells. He has a 7-by-10-foot cell that has 
nothing more than a bed, a toilet, and a shelf for a change of 
clothes. He is not allowed writing materials and is only 
permitted to read the Bible. And there is no electricity or 
light when it is dark outside. Each month, he is moved to a 
different dirty cell to maximize his discomfort.
    The government's persecution of Leopoldo has affected my 
entire family. Government officials regularly attack our family 
on national TV. President Maduro has accused Lilian of treason, 
which carries a 30-year prison sentence in Venezuela. My father 
was forced to go into exile after a newspaper on whose board he 
sits was accused of criminal libel against speaker of the 
National Assembly Diosdado Cabello. Last month, government-
sponsored thugs tried kidnapping our older sister, Diana. 
Fortunately, they failed. We routinely fear for Leopoldo's 
life, and we fear for our own life as well.
    No one in the world should doubt why Leopoldo is in prison. 
Maduro is afraid of him. Even as Leopoldo sits in prison, the 
independent polling firm Datanalisis showed that in a 
Presidential matchup between Maduro and Leopoldo is up by 32 
percentage points.
    Furthermore, Maduro has not delivered on his promises. His 
actions have delivered difficulties that Venezuelans are 
experiencing today. We have the second-highest murder rate in 
the world, 25,000 deaths in 2014 in a country where 97 percent 
of our crimes go unpunished.
    The desperate plight of our country, which has included an 
annual inflation rate of 159 percent and our GDP is expected to 
shrink by 10 percent in 2015 alone, has led to drastic 
shortages of food and medical supplies.
    My country is on the edge of a humanitarian crisis that 
could have devastating effects on the regional stability. The 
repressive regime has created a beleaguered nation that is 
struggling. Thus far, the United States has taken a strong 
stand advocating for the rights of the Venezuelan people, but 
there is more that the government can do. We need Latin 
American leaders to move from rhetoric to action. The U.S. can 
help push the situation of Venezuela to be discussed in 
multilateral fora, such as the OAS, the U.N. Human Rights 
Council, and the U.N. General Assembly.
    Additionally, on December 6, Venezuela will have 
parliamentary elections, and in order for these to be 
significant, the people of Venezuela must have faith in the 
process. Currently, the Venezuelan Government has rejected 
offers of international electoral observation from the OAS and 
the United Nations. The United States must continue to pressure 
the government to accept observation from qualified observers.
    I am proud that Leopoldo's case has become a rallying cry 
around the world and the lens through which countless of 
millions of people can see the authoritarian regime in 
Venezuela. Through Leopoldo's case, the world has come to know 
the suffering of the Venezuelan people. We must have hope that 
Venezuelans will persevere against this severe repression and 
that the world will rally with us.
    Fuerza y fe. Thank you.
    [The prepared statement of Ms. Lopez Vermut follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you. Thank you for your testimony. And 
your brother is in our thoughts and prayers. And I am too glad 
he has become a rallying cry. So thank you for being here 
today.
    I now recognize the next panelist, Mr. Vecchio Demari.

   STATEMENT OF MR. CARLOS VECCHIO DEMARI, LAWYER, NATIONAL 
            POLITICAL COORDINATOR, VOLUNTAD POPULAR

    Mr. Vecchio Demari. Good afternoon, Mr. Chairman Duncan and 
the other members of this committee. I want to thank you for 
this opportunity to give us our testimony regarding the 
violation of human rights in Venezuela. I am particularly--the 
election that we are going to have this December.
    This is the first time that I have the opportunity to 
testify before a formal and independent institution so this 
gives you an example of how difficult the situation is in 
Venezuela and the lack of separation of power.
    I want to divide my testimony in three parts. The one, it 
will be related to the protest in 2014; the second one will be 
related to the election day with the election process; and the 
last one, sound recommendation that I want to give you for your 
consideration.
    So let me talk about the 2014 protest. I remember that I 
had that discussion with Leopoldo Lopez and the students who 
are related to the student movement. At that time we decided 
that we needed to urge the Venezuelan people to protest 
peacefully, to defend our rights according to our Constitution 
and against the Maduro regime due to the economic, social, and 
political problems that we are facing right now and we face at 
that time. They do not clearly reflect the crisis that we are 
facing. This year is even worse than last year, and it will be 
critical next year.
    So Maduro regime reacted against us because we were 
exercising constitutional rights. We had been persecuted 
because of our ideas, our democratic speeches. This has been 
our crime according to the government, according to Maduro. 
That is why Maduro decided to put in jail Leopoldo. Five days 
later they issue an order of arrest against me for the same 
reason, for the same crimes, and again, without evidence 
because we were exercising our constitutional rights.
    I remember that in February 17 in 2014 I had to receive 
three violent attempts of arrest for the military force from 
the government. They couldn't capture at that time. Then I 
decided to spend 108 days in hiding in Venezuela in order to 
continue our, you know, political activities in a very 
difficult situation receiving many type of threats during those 
days.
    After those days, after an internal discussion with my 
political party, we decided that I needed to play an 
international role, that I had to leave Venezuela to be a voice 
in the international arena. Let me tell you this. This has been 
the most difficult decision that I have ever taken. I had to 
leave my country because of political reasons for the way that 
I am thinking political.
    That is not the Venezuela that we deserve. That is not the 
system that we deserve for the region. And that moment when I 
was leaving my country, it left a mark in my soul saying this 
moment had to give more faith, more strength in order to 
continue our struggle. And that is what I have been doing 
outside of Venezuela.
    Recently, as Adriana said, two of the lead prosecutors left 
Venezuela and said that he received order directly from Maduro 
to put Leopoldo in jail and also against me. That was a clear 
testimony, which confirmed what we have been saying national 
and international, that there is a generalized and a systematic 
state policy from the government to intimidate and to persecute 
the Venezuelan people who are thinking different from the 
government. And that persecution, that intimidation is still 
ongoing in Venezuela. So the judicial system is used by the 
government to persecute the opposition that this is in 
Venezuela.
    So this is the aspect regarding our participation in the 
protest and how I have been affected, how they are violating my 
human rights during those days.
    The second part of my testimony is regarding the upcoming 
election in December 6. To illustrate to you what we are facing 
for this process, let's do a short exercise of imagination. 
Let's start with this. Imagine that Obama abusing of his power 
prohibit 10 of the most popular Republican candidate to 
participate in the primary process they are going right now in 
process. So imagine that he can prohibit 10 of the 15 
candidates in the primary process of the Republican Party. 
Imagine that Obama also can prohibit those candidates to do 
campaign in those swing States but not to the other candidates. 
Imagine that Obama prohibits CNN and Fox to broadcast the 
Republican debates.
    So this exercise of imagination is a reality in Venezuela. 
Maduro has done all what I just said. They have prohibited 10 
opposition leaders to participate as a candidate in this 
election. I am one of them. They have controlled the media so 
it is quite difficult for the opposition to communicate our 
message to the rest of the people. They have declared a state 
of emergency in certain border states so it is quite difficult 
to campaign freely. They have militarized those states so it is 
quite complicated to do campaign in that condition.
    So let me tell you a little bit more about my case. I 
presented my candidacy before the electoral branch and that 
candidacy was eliminated. I was competing against Diosdado 
Cabello, who is the current president of the Congress in 
Venezuela. Fifteen days later I read in the news that somebody 
challenged my candidacy. They did not defy me and they didn't 
the opportunity to me to express my arguments and they decided 
to cancel my candidacy under the absurd and unconstitutional 
argument that my candidacy was an affront of law because my 
intention was not to represent my estate but rather to gain 
parliamentarian immunity in order to avoid my order of arrest.
    That is something that we couldn't understand. And as I 
said, that is a violation of my human rights because in order 
to restrict a political right in Venezuela, you have to issue a 
final and enforceable sentence.
    Finally----
    Mr. Duncan. I am going to need you to wrap up.
    Mr. Vecchio Demari. Yes. Finally, my recommendation to you, 
I want to highlight three points. One, you need to work in our 
view the U.S. Government with the government--with the Congress 
in Latin America in order to protect and to support human 
rights in Venezuela and to defend the principle of democracy. 
That is one recommendation that we think it could work to help 
us in order to defend democracy in Venezuela.
    Second one, we need qualified observers for the next coming 
election. You need to discuss with the region as well how can 
we have this independent observer for our election.
    And finally, finally, I think you can promote legislation 
in order to facilitate political asylum or the immigration 
process for Venezuelans.
    Thank you very much.
    [Mr. Vecchio Demari did not submit a prepared statement 
until after the start of the hearing. It appears in the 
appendix.]
    Mr. Duncan. Thank you.
    Ms. Pacheco for 5 minutes, please.

  STATEMENT OF MS. IBEYISE PACHECO, VENEZUELAN JOURNALIST AND 
                             WRITER

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Pacheco. Good afternoon.
    Kluivert Roa supplicated onto the police officer, please do 
not kill me. Don't kill me. The official shot him at a short 
distance in the head with a 12 caliber gunshot with plastic 
bullets. This caused a deadly injury in his cranium. Kluivert 
was 14 years old. According to witnesses, Kluivert was just 
coming out of class and he just came across a rally of 
youngsters. It was in San Cristobal, a city at the southwestern 
part of Venezuela.
    Kluivert, as a good Samaritan, he stopped to assist another 
student who had been injured. He was taken by surprise by one 
representative of the police forces of the Bolivarian regime of 
Maduro who kill him while being on his knees. It took place on 
February 24, 2015.
    Last year, 24,980 citizens were killed as victims of the 
violence. We are the second country with homicide in the world. 
Besides that, in Venezuela there are 74 political prisoners. 
More than 2,000 people have outstanding judicial proceedings. 
And there are 3,775 detentions had been carried out only on 
account of rallies during last year.
    With violations to the right of defense, to the due 
process, with torture and cruel treatment, with electrical 
shocks and sex violations or rape, threats of violations and 
rapes, suffocation with plastic bags, multiple fractures and 
other injuries.
    Last June 17, Beatriz Lara, a reporter with the Aragueno 
newspaper, she was placed in handcuffs to an electricity pole 
for a couple of hours in the middle of news coverage. This 
bothered police officials in the middle of the country. The 
female reporter, along with a cameraman, they were subjected in 
the street to beating and insults, along with kickings. Not 
being enough in such a situation and mistreatment, the female 
reporter was ripped off of her clothing arguing that she had a 
weapon in her intimate parts. To prove that that was not the 
case, she had to jump and down while squatting as if she was a 
kangaroo.
    These facts, along with many other facts that I know, the 
representative could have heard are unknown by the Venezuelan 
people, and they are unknown, they are not aware of those 
because of the force, control exerted by the Maduro regime. 
This regime, which is in charge of silencing the truth and 
create terror and misrepresent the facts in their best 
interest. The justice or judicial system in Venezuela, if you 
can call it like that, utilized a sensor to chastise the 
exercise of journalism to threaten----
    Mr. Duncan. Ms. Pacheco, I am going to ask you to start 
wrapping up. Hit some of the highlights and wrap up just in the 
sense of time. Thank you.
    Ms. Pacheco. Yes. I am summarizing it because I just heard 
the Cuban attendees to take 10 up until 12 minutes. Mine is not 
going to go beyond 7 minutes. That is for certain.
    The judicial Venezuelan system said journalists and owners 
of media, local, domestic and foreigners are persecuted by the 
tribunals and that are managed by the monarchy of the regime 
exposing us to the public damage by bands of criminals.
    In other cases, the media has been put to their knees by 
other criminals or they have been acquired by branches of the 
government to create them into a mechanism--apparatuses of 
their propaganda. The little window, even though it is vital 
that entails the social media, it is weakened by detentions of 
traitors for detentions for months without any help. It is very 
simple. The plan is to isolate the country.
    But also the information sources are persecuted. The doctor 
that files a complaint goes to jail. Same destiny for his or 
her own area, his own educator, a union member or a business 
person, any user that complains about discourtesy, and even 
about a politician that you already listened to his testimony.
    Great danger risks them who protects the one in need or who 
protects the human rights. But even two attempts of suicide by 
Marcelo Crovato and months of prison move his killers to piety.
    This is not a new situation. I personally have been 
persecuted by the regime ever since the year 2001. I have 
suffered 20 trials, grave and serious investigations and public 
accusations. I was incarcerated in 2005. I have gone to 
international organizations and not even now when I live in the 
U.S. have the attacks ceased.
    I want to call on the attention of the particular case of 
Diosdado Cabello who has been investigated upon here by the 
authorities of this country on the alleged basis of narco 
trafficking.
    Mr. Duncan. I really need you to wrap up.
    Ms. Pacheco. Okay. Okay. I am going to wrap up.
    Cabello uses the Venezuelan official media to submit all 
the Venezuelans to the public criticism and all of the 
mechanisms of the state.
    Fear cannot stop us if we are all united and raise our 
voices against the regime.
    Finally, I ask myself, how would Venezuela be today if 
democratic governments had listened to the alarms that have 
been beeping since more than a decade ago. The Maduro regime 
fails to comply with the laws and human rights. Is it not the 
case that any institution or international institution or 
government is an accomplice who knowingly in the face of this 
case keeps silent or does not care about acting? Is it not the 
case that international agreements are executed to accomplished 
and fulfilled and to make them be fulfilled?
    Just a few days ago, posting of a picture of a candidate 
for the police force of the Maduro regime started to go around 
in the social media. Face of an 18-year-old girl laughing with 
the grenade in her hands, the same as is done by the criminal 
groups that assassinate people in my country.
    With all due respect, I tell you I refuse for that to 
become our future. I did not want that either to extend on to 
this continent because I confess to you we feel helpless. 
Anyway, thank you for listening to me today. Thank you.
    [The prepared statement of Ms. Pacheco follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you for that. We lost our other Members 
of Congress just because of their schedules, so I will 
recognize myself for as much time as I need to ask all the 
questions that I want to ask.
    Do you think--and this is to all the panelists. Do you 
think the elections will be truly free and fair?
    Ms. Lopez Vermut. I am not a politician but I have a 
brother who is a politician who should have the right to run in 
fair elections, and he is in prison, alongside other 
politicians who are being banned to run. So, no, there cannot 
be fair elections if the opponents are not allowed to run.
    Mr. Vecchio Demari. No. Absolutely no. As I said, the 
government of Maduro has taken several actions in order 
precisely to avoid to have a fair and a transparent election. 
That is why we are asking for an international independent 
observer in order to watch the electoral process. We don't 
trust institutions in Venezuela. We trust in the people and we 
need a massive participation. We need an organization which is 
capable to overcome those obstacles that the government is 
putting in place in order to avoid defeat.
    All polls show that the opposition will win by a large 
margin. That is why Maduro regime is taking this type of 
actions, to avoid that, and that is why we are coming to the 
international community to support what we see right now in our 
society, a change----
    Mr. Duncan. Right.
    Mr. Vecchio Demari [continuing]. Which is a reversible 
change.
    Mr. Duncan. Ms. Pacheco?
    Ms. Pacheco. A fundamental aspect during these elections 
and this is going to happen is the darkest moment of the 
exercise of journalism in the country. There is no 
communication or media that can communicate the truth.
    Mr. Vecchio Demari. Usually, where aggressions are 
committed in the educational center----
    Mr. Duncan. Senor Vecchio--what role does the U.S. and 
international community play in this? With regard to the 
elections, how can we assure that they are free and fair? I 
mean what more can we do?
    Mr. Vecchio Demari. Well, I would say you should get in 
contact with Latin American countries in order to work in the 
multilateral organizations such as OAS and even UNASUR in order 
to build independent and a technical observer to play a role in 
the Venezuelan election. We are a month for that election. I 
think it is going to be quite difficult but I think what you 
need to do an effort, working especially with Latin American 
countries because this will affect not only the Venezuelans but 
also it could bring an instability to the region if we do not 
have a fair and a transparent election in which the Venezuelans 
could trust. So it is a very critical moment. So I would say 
that you should work with the rest of the Latin American 
countries and with the multilateral organizations.
    Mr. Duncan. December 6 is coming awfully quickly. I want to 
ask about Leopoldo. What impact has his arrest and his 
detention and this recent sentencing had on your family and his 
wife and children?
    Ms. Lopez Vermut. You must imagine it is a very hard 
situation. We have always been supporters of Leopoldo's career 
path. He has been a politician for over 10 years. This has 
affected my nieces, my nephew. They are growing up and they 
know what it is to visit a jail, what it is to have somebody 
that drives you to school be kidnapped and beaten on your 
behalf. They have seen people killed protecting their father. 
Psychologically, I think that will have a lasting impact on 
them.
    My father is an exile. He cannot go back to Venezuela. 
There is a warrant for his arrest. My sister was almost 
kidnapped. My sister-in-law and my mother are in Venezuela. 
They continue to support Leopoldo and they bravely do so.
    We are being persecuted. We have been persecuted for 
multiple years, but it has affected the family dynamic. We 
don't know for how long. Hopefully, it will not be for 14 
years.
    Mr. Duncan. Is there any chance that his sentence would be 
shortened?
    Ms. Lopez Vermut. We definitely hope so. I----
    Mr. Duncan. I mean is there precedence for that in the 
past?
    Ms. Lopez Vermut. I don't think so.
    Mr. Duncan. Yes.
    Ms. Lopez Vermut. I don't think so.
    Mr. Duncan. That is----
    Ms. Lopez Vermut. Unless he is given house arrest, which is 
a possibility. One of the things that we really would like for 
the United States is to do is to allow for the International 
Red Cross to be accepted in Venezuela to visit the prisons. 
Leopoldo's mental health is of great concern in that we want to 
make sure that he gets access to books, that he gets access to 
regular light, that he gets access to exercise, to written 
material, to visitors. He is not a terrorist. He should be 
allowed his human and prisoner rights to be observed, and they 
are not.
    And the government does not allow any observers of the 
conditions of prisoners in Venezuela to be assessed. That is 
another point of support that we can get from the United 
States.
    Mr. Duncan. Wow. I am going to ask all panelists, we talked 
in the first panel about access to freedom of speech, access to 
a free and open press, the dissemination of information, access 
to the Internet, and so how do people stay informed in 
Venezuela? Is online media restricted? Is there social media 
available? Help educate us about how people stay informed in 
Venezuela. And that is to everyone, but I will start with Ms. 
Pacheco.
    Ms. Pacheco. Yes, the system is very marginal, very limited 
and usually very distorted because the government has purchased 
the majority of the media. So they have made it into 
apparatuses for their propaganda. And social network, which is 
the small network, which is not as important, is important. 
Their users are subject of persecution. They have also been 
persecuted. They have been detained. They have been hacked.
    Mr. Duncan. Mr. Vecchio, you are in exile so to speak. Are 
you able to communicate back into your country?
    Mr. Vecchio Demari. You know, I use the social media in 
order to get information from Venezuela. I don't trust in the 
media. In the media in Venezuela it is quite difficult to get 
information from them, and if I want to communicate with them 
through, for example, Skype or even call them, I have to be 
aware that the government is going to record that conversation. 
So it is quite difficult to keep that communication clear and 
transparent. So it is not that easy. It is not that easy.
    Mr. Duncan. Does the government block some of the emails or 
social media, tweets----
    Mr. Vecchio Demari. They capture that and they will use it 
against you.
    Mr. Duncan. They capture it and use it against them but----
    Mr. Vecchio Demari. Yes, illegally.
    Mr. Duncan [continuing]. They don't block it?
    Mr. Vecchio Demari. Illegally.
    Mr. Duncan. Yes.
    Mr. Vecchio Demari. Yes. So the point is that I get 
information from the media, for example, Twitter or certain web 
pages.
    Mr. Duncan. Yes.
    Ms. Pacheco. I want to point out that a state channel 
Diosdado Cabello, the person of the National Assembly, 
publishes personal information, altered, manipulated 
information that discloses certain limited communication 
between militants and opposition.
    Mr. Duncan. I think is important for the American people to 
hear. We take this for granted. I said it earlier, our access.
    Leopoldo, will he have any chance to have access to the 
press or to the Internet or any way to further his 
understanding of what is going on in the outside world?
    Ms. Lopez Vermut. No, he has limited access, arbitrary that 
is, to the TV. But again, the TV channels available are 
government-run so it is partial.
    One thing that I think for the American people to 
understand that information is known, I think that there is a 
lot of controversy as to how much governments listen in to 
citizens. That is a big topic of conversation. What I explain 
to people is most of the time, while you know that you might be 
listened to, you don't fear for your life. What is going on in 
a place like Venezuela is that not only are you being listened 
to but that information is going to be used against you or your 
family for persecution all the way up to death. It is very 
different, that sense of fear for your life than just knowing 
that, you know, we are being listened to. We live in a 
different communication world.
    Mr. Duncan. Wow. Mr. Vecchio.
    Mr. Vecchio Demari. Another piece of this equation is that 
you have problem to get information from the media in 
Venezuela, but also you have problem to express your ideas. You 
don't have channel to express your ideas. For example, Diosdado 
Cabello, he has a weekly TV program. In every program he 
attacks me, any time, any time so I don't have the opportunity 
to respond to those attacks. So the Venezuelan people only get 
the information that Diosdado gives to the people of Venezuela. 
So I don't have the opportunity to express my ideas and my 
opinion. So those windows are totally closed in Venezuela, you 
know. And when you put this in the context of an election, that 
is critical----
    Mr. Duncan. Right.
    Mr. Vecchio Demari [continuing]. You know what I am saying, 
because I mean the electoral--the voters only will get one 
information----
    Mr. Duncan. Yes, one side of the story.
    Mr. Vecchio Demari. One side of the story.
    Mr. Duncan. Right. Right. Let me ask you this. You 
mentioned in your testimony about your constitutional rights 
and----
    Mr. Vecchio Demari. Yes.
    Mr. Duncan [continuing]. You know, when Americans hear 
that, we think about our constitutional rights. But from what I 
understand about Venezuela, what good is the Constitution if 
the Maduro government is not following that, if you still don't 
have a free judiciary? So talk a little bit more about what 
that Constitution may or may not mean today, November 2015. 
What is the Constitution?
    Mr. Vecchio Demari. The Constitution, I mean, is very well-
written. The problem is the Maduro doesn't comply with the 
Constitution. That is the deal. We have the separation of power 
in the Constitution, but in the practical point of view, they 
control all the powers in Venezuela. For example, in my case 
the only way to limit my political rights to run for office is 
through a final and enforceable criminal sentence. So that 
doesn't occur in my case, and they disregard my candidacy. They 
cancel my candidacy and I didn't have the opportunity even to 
defend my rights, to hear--I didn't have the opportunity to 
give them my arguments. So the Constitution is there, but when 
you see it from the theoretical point of view, when you see the 
practice, they don't comply with the letter of the 
Constitution. So that is the big problem.
    Mr. Duncan. So how do you change the judiciary with a 
strong authoritarian government like Maduro's who ignores the 
Constitution? I mean truly the judiciary is your avenue of 
recourse. But if the judiciary is controlled and they ignore 
the Constitution--so I guess my question is how do you see a 
pathway to change?
    Mr. Vecchio Demari. That is why this election is quite 
important. The Supreme Court magistrates or judges are 
appointed by the National Assembly. So that will be a key 
element in order to have an impartial judicial branch. So that 
is quite important. And then also the electoral branch is 
appointed so the National Assembly----
    Mr. Duncan. How many assemblymen are up for reelection?
    Mr. Vecchio Demari. What?
    Mr. Duncan. In the Congress, how many assemblymen----
    Mr. Vecchio Demari. Five years and you can be reelected.
    Mr. Duncan. Are some of them up for reelection this year?
    Mr. Vecchio Demari. Yes. For example, Diosdado Cabello, I 
was competing against Diosdado, and I don't have any doubt that 
he gave an order to the electoral branch to cancel my 
candidacy. He didn't want to run against me. So he controlled 
that, that piece of the equation.
    Mr. Duncan. Wow. Wow. I mean rule of law is so important.
    Mr. Vecchio Demari. Yes. And I also want to point out that 
the sentence against Leopoldo is not only against Leopoldo. We 
have to be very careful on that. It is against any Venezuelan 
who thinks different from the government.
    Ms. Lopez Vermut. Well, it is important if you read 
Leopoldo's sentence, the language that is used explains--sorry, 
describes that Leopoldo had a machinery, Leopoldo is the 
intellectual actor who was using his messaging to make--he was 
the determiner using a criminal organization. So by putting in 
a sentence that the political party that he runs is actually a 
criminal organization, effectively, the state is criminalizing 
political parties and difference of opinion.
    Mr. Duncan. Ms. Pacheco, in your written statement and in 
your verbal statement you said in Venezuela there are 
systematic and generalized attacks against people who dare 
express ideas and thoughts of disagreement or critics toward 
the government. What impact do you think the December 6 
elections will have on this culture of fear?
    Ms. Pacheco. The thing is that the regime is betting to 
violence. And this is a scary scenario because this is a 
political circumstance in which they internally--and when I say 
internally, they, the government--they are against each other. 
They are not against each other on an ethical basis or problem 
but it is so because they dispute the power. They are playing 
against the power. This sentence can sound very terrible.
    And the image is that of a country by which the criminal 
groups want to remain in power, and of course, then they appeal 
to any necessary--whatever is necessary of course out of the 
law, without forgetting that the power currently has been 
inherited from the government of Chavez. They are the military. 
And the military are, at least it has been demonstrated by way 
of the investigations, well advanced and they are compromised. 
They are involved with the cartel of the narco trafficking. And 
since they are going to defend their business, seeing their 
power diminished, as a danger they can recourse to repression 
and power that they did so already in 2014, and of which we 
have Leopoldo Lopez, the symbol of injustice because of a 
peaceful rally and protest.
    Mr. Duncan. Wow. Okay. Last question, how are the sanctions 
working that the U.S. has imposed on Venezuela? And that is to 
all the panelists. Are the sanctions working? Can the U.S. do 
more? What is the effect it is having in Venezuela? I will 
start with Mr. Vecchio.
    Mr. Vecchio Demari. Yes. I would say yes, they have been 
working well, but you cannot take this action isolated. It is 
not a silver bullet. I think you have to combine with a 
holistic strategy in order to approach the Venezuelan problem. 
For example, as I said, working with government in Latin 
America to support, for example, a hearing like this to show 
what is really happening in Venezuela, working with those 
governments in multilateral organizations such as U.N. in order 
to ask for the compliance of the resolution who have asked for 
the release of political prisoners. So it is not alone. One 
measure will not help you to support our struggle to restore 
democracy in Venezuela. So if you are only taking consideration 
of that action, it won't be enough. You know what I am saying? 
So I think it should be part of a holistic strategy with 
different governments and at the same time multilateral----
    Mr. Duncan. Sanctions----
    Mr. Vecchio Demari [continuing]. Organizations----
    Mr. Duncan [continuing]. Alone won't work?
    Mr. Vecchio Demari. What?
    Mr. Duncan. Sanctions alone won't work is what you are 
saying?
    Mr. Vecchio Demari. I think they have to be combined with 
other measures, yes.
    Mr. Duncan. Yes.
    Mr. Vecchio Demari. And let me add this. Probably you won't 
see an immediate result, but that is causing a concern on the 
media officers in Venezuela saying I don't want to follow the 
top officers in Venezuela putting us in a problem around the 
world and especially with the violation of human rights. So now 
I need to be aware of this. You know, that is also a message 
that the media officers and the administration is taking in 
consideration in order to take decisions. Okay?
    Ms. Lopez Vermut. I think the message was very clear, and I 
think it was successful to an extent. I agree with Carlos in 
what he said. I think that when you see people leaving the 
country and coming to the United States willing to give 
information in exchange for something, it means that they are 
afraid.
    To me as an American citizen, the most valuable lesson of 
the sanctions is understanding that it is not right to use 
American soil, American systems, financial organizations to 
wash your hands when you have blood on your hands in another 
country. I think that is a really powerful message, and I do 
think strongly that people within the regime think about that.
    Mr. Duncan. Right. Right.
    Mr. Vecchio Demari. Just let me add just a short sentence 
which is very important, something that you could do. We 
understand there is an ongoing investigation from the U.S. 
authorities against top Venezuelan officers, for example, 
Diosdado Cabello and others regarding drug trafficking and 
money laundering. We need to know who they are. We need to know 
the status of that investigation. That is quite important. And 
also, we need to see, although I understand that you have a 
legal procedure to follow, but we need to see the evidence that 
supports those investigations. That will help us to show to the 
Venezuelans who really are in power right now.
    Mr. Duncan. That is interesting. So, Ms. Pacheco?
    Ms. Pacheco. If you ask me about honesty, and I will do so, 
that the idea initially is a good basis, and the initiative, 
that probably the idea of having it work on some Venezuelan 
officers are used by the government of Maduro, Maduro's regime 
for their own benefit in Venezuela, within Venezuela. And the 
polarization between the nationalism and if we do not move from 
words into action to the next step, nothing concrete will be 
obtained.
    Personally, I believe that there is sufficient evidence 
that there is evidence of high top officers of the regime, the 
government, the Venezuelan regime involved in the violation of 
human rights, in narco trafficking and money laundering, and in 
a whole bunch of crimes that they even carry out here. And that 
at the end of the day we have not seen serious decisions with 
that regard.
    Mr. Duncan. Thank you. I hate to do it, but we are going to 
have to wrap up. I want to thank the witnesses on panel II for 
your bravery and your courage that you have shown here just by 
testifying today. The courage that you have shown is not 
forgotten.
    Pursuant to the committee rule 7, the members of our 
subcommittee be permitted to submit written statements be 
included in the official hearing record. And without objection, 
the hearing record will remain open for 5 business days to 
allow statements, questions, extraneous materials for the 
record subject to the length limitation to the rules.
    And there being no further business, this committee will 
stand adjourned.
    [Whereupon, at 12:56 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
